No.

In the Supreme Court of the United States
WILLIAM P. BARR, ATTORNEY GENERAL;
FEDERAL COMMUNICATIONS COMMISSION,
PETITIONERS

v.
AMERICAN ASSOCIATION OF POLITICAL
CONSULTANTS, INC., ET AL.
ON PETITION FOR A WRIT OF CERTIORARI
TO THE UNITED STATES COURT OF APPEALS
FOR THE FOURTH CIRCUIT

PETITION FOR A WRIT OF CERTIORARI
NOEL J. FRANCISCO
Solicitor General
Counsel of Record
JOSEPH H. HUNT
Assistant Attorney General
MALCOLM L. STEWART
Deputy Solicitor General
FREDERICK LIU
Assistant to the Solicitor
General
MARK B. STERN
MICHAEL S. RAAB
LINDSEY POWELL
Attorneys
Department of Justice
Washington, D.C. 20530-0001
SupremeCtBriefs@usdoj.gov
(202) 514-2217

QUESTION PRESENTED

The Telephone Consumer Protection Act of 1991
(TCPA), Pub. L. No. 102-243, 105 Stat. 2394, generally
prohibits the use of any “automatic telephone dialing
system or an artificial or prerecorded voice” to “make
any call” to “any telephone number assigned to a * * *
cellular telephone service.” 47 U.S.C. 227(b)(1)(A)(iii)
(Supp. V 2017). The TCPA excepts from that automatedcall restriction any “call made for emergency purposes
or made with the prior express consent of the called
party.” Ibid. In 2015, Congress amended the TCPA to
create an additional exception for calls “made solely to
collect a debt owed to or guaranteed by the United
States.” Ibid.
Respondents wish to use an automatic telephone dialing system or an artificial or prerecorded voice to
make calls to the cell phones of potential or registered
voters to solicit political donations and to advise on political and governmental issues. First Am. Compl. ¶¶ 810, 12. The court of appeals held that the governmentdebt exception to the TCPA’s automated-call restriction
violates the First Amendment. The court further held
that the proper remedy was to sever the governmentdebt exception, leaving the basic automated-call restriction in place. The question presented is as follows:
Whether the government-debt exception to the
TCPA’s automated-call restriction violates the First
Amendment, and whether the proper remedy for any
constitutional violation is to sever the exception from
the remainder of the statute.

(I)

PARTIES TO THE PROCEEDING

Petitioners (defendants-appellees below) are William P. Barr, in his official capacity as the Attorney
General of the United States; and the Federal Communications Commission.
Respondents (plaintiffs-appellants below) are the
American Association of Political Consultants, Inc.; the
Democratic Party of Oregon, Inc.; Public Policy Polling,
LLC; and the Washington State Democratic Central
Committee. *
RELATED PROCEEDINGS

United States District Court (E.D.N.C.):
American Ass’n of Political Consultants, Inc. v.
Sessions, No. 16-cv-252 (Mar. 26, 2018)
United States Court of Appeals (4th Cir.):
American Ass’n of Political Consultants, Inc. v.
FCC, No. 18-1588 (Apr. 24, 2019), petitions for
reh’g denied, June 21, 2019

Tea Party Forward PAC was named as a plaintiff in the First
Amended Complaint, but withdrew as a party while the case was
pending in the district court. D. Ct. Doc. 38, at 1 (July 11, 2017). It
was not a “part[y] to the proceeding in the court whose judgment is
sought to be reviewed.” Sup. Ct. R. 12.6.
*

(II)

TABLE OF CONTENTS

Page
Opinions below .............................................................................. 1
Jurisdiction .................................................................................... 2
Constitutional and statutory provisions involved...................... 2
Statement ...................................................................................... 3
Reasons for granting the petition ............................................... 6
A. The court of appeals erred in invalidating the
TCPA’s government-debt exception ............................... 6
B. The question presented warrants this Court’s
review in this case ........................................................... 15
Conclusion ................................................................................... 18
Appendix A — Court of appeals opinion (Apr. 24, 2019) ...... 1a
Appendix B — District court order (Mar. 24, 2018) ........... 25a
Appendix C — District court order (Mar. 15, 2017) ........... 43a
Appendix D — Court of appeals order (June 21, 2019) ...... 49a
Appendix E — Statutory provisions ..................................... 50a
TABLE OF AUTHORITIES

Cases:
Ashcroft v. ACLU, 542 U.S. 656 (2004) ............................... 15
Blodgett v. Holden, 275 U.S. 142 (1927) .............................. 16
Bonin v. CBS Radio, Inc., No. 16-cv-674
(E.D. Wis. Nov. 20, 2017) ................................................... 16
Campbell-Ewald Co. v. Gomez, 136 S. Ct. 663 (2016) ........ 12
Duguid v. Facebook, Inc., 926 F.3d 1146
(9th Cir. 2019), petition for cert. pending,
No. 19-511 (filed Oct. 17, 2019) .............................. 13, 14, 16
Gallion v. Charter Commc’ns, Inc., 772 Fed. Appx.
604 (9th Cir. 2019), petition for cert. pending,
No. 19-575 (filed Nov. 1, 2019) ..................................... 16, 17
Gomez v. Campbell-Ewald Co., 768 F.3d 871 (9th Cir.
2014), aff ’d on other grounds, 136 S. Ct. 663 (2016) ........ 11

(III)

IV
Cases—Continued:

Page

Greenley v. Laborers’ Int’l Union of N. Am.,
271 F. Supp. 3d 1128 (D. Minn. 2017) ............................... 16
Holder v. Humanitarian Law Project, 561 U.S. 1
(2010) .................................................................................... 15
Iancu v. Brunetti, 139 S. Ct. 2294 (2019) ............................ 15
Matal v. Tam, 137 S. Ct. 1744 (2017)................................... 15
Mejia v. Time Warner Cable, Inc., No. 15-cv-6445,
2017 WL 3278926 (S.D.N.Y. Aug. 1, 2017) ....................... 16
Milavetz, Gallop & Milavetz, P.A. v. United States,
559 U.S. 229 (2010).............................................................. 10
Moser v. FCC, 46 F.3d 970 (9th Cir.), cert. denied,
515 U.S. 1161 (1995)............................................................ 11
National Inst. of Family & Life Advocates v.
Becerra, 138 S. Ct. 2361 (2018) ............................................ 8
Pleasant Grove City v. Summum, 555 U.S. 460
(2009) .................................................................................... 10
Reed v. Town of Gilbert, 135 S. Ct. 2218 (2015) .................. 11
Return Mail, Inc. v. United States Postal Serv.,
139 S. Ct. 1853 (2019) ......................................................... 12
Rostker v. Goldberg, 453 U.S. 57 (1981) .............................. 16
Schaevitz v. Braman Hyundai, Inc., No. 17-cv-23890
(S.D. Fla. Mar. 25, 2019) .................................................... 16
Sorrell v. IMS Health Inc., 564 U.S. 552 (2011) ................... 7
Spokeo, Inc. v. Robins, 136 S. Ct. 1540 (2016) ...................... 9
United States v. Alvarez, 567 U.S. 709 (2012) .................... 15
United States v. Kebodeaux, 570 U.S. 387 (2013) .............. 15
United States v. Morrison, 529 U.S. 598 (2000) ................. 15
United States v. Stevens, 559 U.S. 460 (2010) .................... 15
United States v. Williams, 553 U.S. 285 (2008) ................. 15
Walker v. Texas Div., Sons of Confederate Veterans,
Inc., 135 S. Ct. 2239 (2015) ................................................. 10

V
Case—Continued:

Page

Williams-Yulee v. Florida Bar, 135 S. Ct. 1656
(2015) .............................................................................. 12, 13
Constitution and statutes:
U.S. Const. Amend. I ................................................... passim
Free Speech Clause .......................................................... 4
Bankruptcy Abuse Prevention and Consumer
Protection Act of 2005, Pub. L. No. 109-8,
119 Stat. 23 .......................................................................... 10
11 U.S.C. 526(a)(4)........................................................... 10
Bipartisan Budget Act of 2015, Pub. L. No. 114-74,
Tit. III, 129 Stat. 588:
§ 301, 129 Stat. 588 ............................................................ 3
§ 301(a)(1)(A), 129 Stat. 588 ............................................. 4
Communications Act of 1934, 47 U.S.C. 151 et seq............... 5
47 U.S.C. 608 ...................................................................... 6
Fair Credit Reporting Act, 15 U.S.C. 1681 et seq. ............... 9
15 U.S.C. 1681b(b)(1) ...................................................... 10
Fair Debt Collection Practices Act, 15 U.S.C. 1692
et seq. ...................................................................................... 8
15 U.S.C. 1692c(a) ............................................................. 9
15 U.S.C. 1692c(a)(2) ......................................................... 8
15 U.S.C. 1692c(a)(3) ......................................................... 9
15 U.S.C. 1692f(7) .............................................................. 9
Telephone Consumer Protection Act of 1991,
Pub. L. No. 102-243, 105 Stat. 2394 .................................... 3
§ 2(6), 105 Stat. 2394 ......................................................... 3
§ 2(10), 105 Stat. 2394 ....................................................... 3
§ 3(a) [§ 227(b)(1)(A)], 105 Stat. 2395-2396 ..................... 3
§ 3(a) [§ 227(b)(1)(A)(iii)], 105 Stat. 2395-2396 ............... 3
47 U.S.C. 227(a)(1)..................................................... 3, 50a

VI
Statutes—Continued:

Page

47 U.S.C. 227(b)(1) (Supp. V 2017) ................ 2, 3, 12, 51a
47 U.S.C. 227(b)(1)(A) (Supp. V 2017) ................... 11, 51a
47 U.S.C. 227(b)(1)(A)(iii)
(Supp. V 2017) .........................................3, 4, 7, 10, 52a
47 U.S.C. 227(b)(1)(B) (Supp. V 2017) ..................... 8, 52a
Miscellaneous:
Office of Mgmt. & Budget, Exec. Office of the
President, Fiscal Year 2016: Analytical
Perspectives of the U.S. Government (2015),
https://go.usa.gov/xUtw2 ................................................... 13

In the Supreme Court of the United States
No.
WILLIAM P. BARR, ATTORNEY GENERAL;
FEDERAL COMMUNICATIONS COMMISSION,
PETITIONERS

v.
AMERICAN ASSOCIATION OF POLITICAL
CONSULTANTS, INC., ET AL.
ON PETITION FOR A WRIT OF CERTIORARI
TO THE UNITED STATES COURT OF APPEALS
FOR THE FOURTH CIRCUIT

PETITION FOR A WRIT OF CERTIORARI

The Solicitor General, on behalf of the Attorney General of the United States and the Federal Communications Commission, respectfully petitions for a writ of
certiorari to review the judgment of the United States
Court of Appeals for the Fourth Circuit in this case.
OPINIONS BELOW

The opinion of the court of appeals (App., infra, 1a24a) is reported at 923 F.3d 159. The order of the district court granting the government’s motion for summary judgment (App., infra, 25a-42a) is reported at 323
F. Supp. 3d 737. The order of the district court denying
the government’s motion to dismiss (App., infra, 43a48a) is not published in the Federal Supplement but is
available at 2017 WL 1025808.
(1)

2
JURISDICTION

The judgment of the court of appeals was entered on
April 24, 2019. Petitions for rehearing were denied on
June 21, 2019 (App., infra, 49a). On September 9, 2019,
the Chief Justice extended the time within which to file
a petition for a writ of certiorari to and including October 21, 2019. On October 15, 2019, the Chief Justice further extended the time to and including November 18,
2019. The jurisdiction of this Court is invoked under
28 U.S.C. 1254(1).
CONSTITUTIONAL AND STATUTORY
PROVISIONS INVOLVED

The First Amendment to the Constitution provides in
pertinent part that “Congress shall make no law * * *
abridging the freedom of speech.” U.S. Const. Amend. I.
Section 227(b)(1) of Title 47 of the United States
Code provides in pertinent part:
It shall be unlawful for any person within the
United States, or any person outside the United
States if the recipient is within the United States—
(A) to make any call (other than a call made
for emergency purposes or made with the prior
express consent of the called party) using any automatic telephone dialing system or an artificial
or prerecorded voice—
*****
(iii) to any telephone number assigned to
a * * * cellular telephone service * * * , unless such call is made solely to collect a debt
owed to or guaranteed by the United States.

3
47 U.S.C. 227(b)(1) (Supp. V 2017). Other pertinent
statutory provisions are reproduced in an appendix to
this petition. App., infra, 50a-59a.
STATEMENT

1. Congress enacted the Telephone Consumer Protection Act of 1991 (TCPA), Pub. L. No. 102-243, 105
Stat. 2394, in light of evidence that consumers “consider
automated or prerecorded telephone calls, regardless of
the content or the initiator of the message, to be a nuisance and an invasion of privacy.” § 2(10), 105 Stat.
2394; see § 2(6), 105 Stat. 2394 (“Many consumers are
outraged over the proliferation of intrusive, nuisance
calls to their homes from telemarketers.”). Since its enactment, the TCPA has generally prohibited “any person within the United States” from “mak[ing] any call
* * * using any automatic telephone dialing system or
an artificial or prerecorded voice” to “any telephone
number assigned to a * * * cellular telephone service.”
47 U.S.C. 227(b)(1)(A)(iii) (Supp. V 2017); see TCPA
§ 3(a) [§ 227(b)(1)(A)(iii)], 105 Stat. 2395-2396. That
prohibition is referred to here as the “automated-call
restriction.” For purposes of that restriction, the statute defines “automatic telephone dialing system” to
mean “equipment which has the capacity * * * (A) to
store or produce telephone numbers to be called, using
a random or sequential number generator; and (B) to
dial such numbers.” 47 U.S.C. 227(a)(1).
As originally enacted, the TCPA excepted from the
automated-call restriction any “call made for emergency purposes or made with the prior express consent
of the called party.” § 3(a) [§ 227(b)(1)(A)], 105 Stat.
2395-2396. In 2015, Congress enacted an amendment
to the TCPA entitled “debt collection improvements.”
Bipartisan Budget Act of 2015, Pub. L. No. 114-74, Tit.

4
III, § 301, 129 Stat. 588 (capitalization and emphasis
omitted). That amendment created an additional exception to the automated-call restriction for calls “made
solely to collect a debt owed to or guaranteed by the
United States.” § 301(a)(1)(A), 129 Stat. 588; see
47 U.S.C. 227(b)(1)(A)(iii) (Supp. V 2017). That exception
is referred to here as the “government-debt exception.”
2. Respondents are an association of political consultants and various political organizations. First Am.
Compl. ¶¶ 8-10, 12. The members of the association,
who include political fundraisers and pollsters, as well
as the political organizations themselves, wish to call
voters on their cell phones using automatic telephone
dialing systems or artificial or prerecorded voices, for
the purposes of soliciting political donations and advising on political and governmental issues. Ibid.
In 2016, respondents sued the Attorney General
and the Federal Communications Commission in the
Eastern District of North Carolina, alleging that the
government-debt exception to the automated-call restriction effects an impermissible form of content-based
discrimination, in violation of the Free Speech Clause of
the First Amendment. First Am. Compl. ¶¶ 13-14, 3663. Respondents sought a declaratory judgment that
the automated-call restriction “on its face is unconstitutional,” an injunction barring enforcement of the restriction, and nominal damages. Id. at 15.
The district court granted summary judgment in favor of the government. App., infra, 25a-42a. The court
rejected respondents’ claim that the TCPA violates the
First Amendment. Id. at 32a-42a. Although the district
court determined that the government-debt exception
“makes content distinctions on its face,” id. at 33a (citation omitted), the court concluded that the exception

5
survives strict scrutiny, id. at 35a-42a. The court explained that the “government-debt exception is a narrow exception that furthers a compelling interest”—
namely, the “ ‘federal government’s interest in collecting debts owed to it’ ”—and that the exception “ ‘does
not do appreciable damage to the privacy interests underlying the TCPA.’ ” Id. at 37a-38a (citations omitted).
3. The court of appeals vacated the judgment of the
district court and remanded the case for further proceedings. App., infra, 1a-24a.
The court of appeals agreed with the district court
that the government-debt exception “facially distinguishes between phone calls on the basis of their content” and therefore is subject to strict scrutiny. App.,
infra, 12a. Unlike the district court, however, the court
of appeals held that the government-debt exception
“fails strict scrutiny review.” Id. at 16a. The court concluded that the government-debt exception renders the
automated-call restriction “fatally underinclusive” “by
authorizing many of the intrusive calls that the automated call ban was enacted to prohibit,” ibid., and by
“imped[ing] the privacy interests of the automated call
ban,” id. at 21a. The court therefore held that the
government-debt exception “violates the Free Speech
Clause.” Id. at 22a.
Turning to the question of the appropriate remedy,
the court of appeals directed that the government-debt
exception be severed from the rest of the TCPA, leaving
the automated-call restriction intact. App., infra, 24a.
The court explained that its choice of severance as the
appropriate remedy was supported both by the “general rule” favoring “ ‘partial’ ” invalidation and by the
severability provision set forth in the Communications
Act of 1934, 47 U.S.C. 151 et seq., of which the TCPA is

6
a part. App., infra, 23a (citation omitted); see 47 U.S.C.
608. The court also emphasized that the automated-call
restriction had been “fully operative” for more than two
decades before Congress enacted the government-debt
exception. App., infra, 24a (citation omitted).
The court of appeals denied rehearing en banc. App.,
infra, 49a.
REASONS FOR GRANTING THE PETITION

The court of appeals invalidated part of an Act of
Congress, holding that the government-debt exception
to the TCPA’s restriction on automated calls violates
the First Amendment. That holding is incorrect, and
this Court usually grants review when a court of appeals
has invalidated a provision of a federal statute. The
Court should follow that course here.
A. The Court Of Appeals Erred In Invalidating The TCPA’s
Government-Debt Exception

In holding that the government-debt exception to the
TCPA’s automated-call restriction violates the First
Amendment, the court of appeals subjected the exception to strict scrutiny. App., infra, 15a. The court’s application of strict scrutiny was unwarranted. Under the
appropriate level of scrutiny, the government-debt exception is constitutional.
1. In holding that the government-debt exception is
subject to strict scrutiny, the court of appeals stated
that the exception “facially distinguishes between
phone calls on the basis of their content.” App., infra,
12a. The court was mistaken. The applicability of the
government-debt exception does not depend on the content of the speech at issue. Rather, it depends on the
call’s economic purpose (i.e., whether the call is “made

7
solely to collect a debt”), and on the existence of a specified economic relationship with the federal government
(i.e., whether the debt is “owed to or guaranteed by the
United States”). 47 U.S.C. 227(b)(1)(A)(iii) (Supp. V
2017); see Sorrell v. IMS Health Inc., 564 U.S. 552, 567
(2011) (recognizing that “restrictions on protected expression are distinct from restrictions on economic activity”).
a. The court below observed that, under the TCPA,
“a private debt collector could make two nearly identical automated calls to the same cell phone using prohibited technology, with the sole distinction being that the
first call relates to a loan guaranteed by the federal government, while the second call concerns a commercial
loan with no government guarantee.” App., infra, 13a.
The court noted that the TCPA would allow the first call
but not the second. Ibid. The court concluded from that
disparity that “[t]he legality of those phone calls, due
solely to the debt-collection exemption, thus depends on
their subject matter (i.e., their content).” Ibid.
That conclusion does not follow. The fact that a particular debt is owed to or guaranteed by the federal government may sometimes be apparent from the prerecorded message on an automated call, but often that will
not be the case. Thus, under the TCPA, a debt collector
could use an automated telephone dialing system to
send numerous debtors the prerecorded message “Please
pay up.” The applicability of the government-debt exception to a particular call would turn on whether the
recipient’s debt was “owed to or guaranteed by the
United States,” 47 U.S.C. 227(b)(1)(A)(iii) (Supp. V
2017), i.e., on whether the requisite federal nexus actually existed, not on whether the prerecorded message
referred to that nexus. Different calls having precisely

8
the same content thus would be treated differently under the statute depending on the precise nature of the
economic activity in which the caller was engaged.
b. The government-debt exception does not extend
to every automated call that is made to a person with a
debt owed to or guaranteed by the government, but rather applies only to calls made “solely pursuant to the
collection of ” such a debt. 47 U.S.C. 227(b)(1)(B) ( Supp.
V 2017); see pp. 13-14, infra. The fact that the exception
is limited to calls made for a debt-collection purpose
does not render the exception content-discriminatory.
The words used in a particular call will often shed light
on whether the call was made to collect a governmentbacked debt, rather than to achieve some other economic objective (such as to sell the debtor merchandise). But the use of a call’s content as evidence of the
type of economic activity involved is not the sort of content-based restriction that triggers strict scrutiny. The
exception is still directed at the economic activity
itself—not the words incidental to it. Cf. National Inst.
of Family & Life Advocates v. Becerra, 138 S. Ct. 2361,
2373 (2018) (“[T]he First Amendment does not prevent
restrictions directed at commerce or conduct from imposing incidental burdens on speech.”) (brackets in
original; citation omitted).
In this respect, the exception is no different from
many other federal statutory provisions that are directed at particular types of economic activity. The
Fair Debt Collection Practices Act (FDCPA), 15 U.S.C.
1692 et seq., for example, imposes a variety of restrictions on debt collectors when they are engaged in collecting debts. Among other things, the FDCPA makes
it unlawful for a debt collector to communicate directly
with a consumer represented by counsel, 15 U.S.C.

9
1692c(a)(2); to communicate with a consumer at the consumer’s place of employment if the debt collector
“knows or has reason to know that the consumer’s employer prohibits” such workplace communications,
15 U.S.C. 1692c(a)(3); and to communicate with the consumer by postcard, 15 U.S.C. 1692f(7).
Those FDCPA restrictions do not apply to communications that are made for purposes other than debt collection. See, e.g., 15 U.S.C. 1692c(a) (applying only to
communications “in connection with the collection of
any debt”). And in determining whether a particular
FDCPA defendant acted with the relevant debt-collection
purpose, a court would surely examine the content of
the communications that were alleged to violate the
statute. Yet no court has struck down those FDCPA
provisions as content-based restrictions on speech. If a
focus on debt-collection communications were treated
as a form of content discrimination, however, the
FDCPA would be subject to a potential First Amendment challenge. See D. Ct. Doc. No. 22-1, at 32, Shadow
v. Midland Credit Mgmt., Inc., No. 17-cv-2277 (S.D.
Cal. June 6, 2019) (debt collector’s motion for summary
judgment asserting that the FDCPA discriminates
based on viewpoint because it “regulate[s] the speech of
debt collectors—speech attempting to collect a debt—
but not the speech of debtors—speech not seeking to
collect a debt”).
Other federal statutes likewise regulate communications concerning discrete spheres of economic activity,
yet they have not heretofore been viewed as contentbased or subjected to strict scrutiny. The Fair Credit
Reporting Act (FCRA), 15 U.S.C. 1681 et seq., for instance, “imposes a host of requirements concerning the
creation and use of consumer reports.” Spokeo, Inc. v.

10
Robins, 136 S. Ct. 1540, 1545 (2016). Among other
things, FCRA limits the circumstances in which “[a]
consumer reporting agency may furnish a consumer report for employment purposes.” 15 U.S.C. 1681b(b)(1).
And the Bankruptcy Abuse Prevention and Consumer
Protection Act of 2005, Pub. L. No. 109-8, 119 Stat. 23,
“subjects debt relief agencies to a number of restrictions and requirements,” Milavetz, Gallop & Milavetz, P.A. v. United States, 559 U.S. 229, 233 (2010), including the restriction that they shall not “advise an assisted person * * * to incur more debt in contemplation
of ” bankruptcy, 11 U.S.C. 526(a)(4).
Although those statutes regulate communications,
they are directed at the economic activity of the persons
involved. The fact that those laws are targeted at particular classes of economic actors and economic activities has not led courts to treat them as content-based
restrictions on speech. Because the government-debt
exception likewise turns on the nature of the economic
activity that a particular call reflects, not on the content
of speech, strict scrutiny is inappropriate here as well.
The nature of the particular economic activity that is
encompassed by the government-debt exception reinforces that conclusion. That activity is not the collection
of debts generally, but the collection of “debt owed
to or guaranteed by the United States.” 47 U.S.C.
227(b)(1)(A)(iii) (Supp. V 2017). And just as the federal
government is largely unconstrained by the First
Amendment when it engages in its own speech, see
Walker v. Texas Div., Sons of Confederate Veterans,
Inc., 135 S. Ct. 2239, 2246 (2015); Pleasant Grove City
v. Summum, 555 U.S. 460, 467-468 (2009), the federal

11
government has a freer hand when it allows private parties to communicate with those who have a specified
economic relationship with the federal government.
2. It appears to be uncontested in this case that the
TCPA’s basic automated-call restriction is not an unconstitutional abridgement of speech. By prohibiting
the use of “any automatic telephone dialing system or
an artificial or prerecorded voice” to make certain calls,
47 U.S.C. 227(b)(1)(A) (Supp. V 2017), the automatedcall restriction regulates the manner of speech, not the
content of it. Under the intermediate scrutiny that applies to content-neutral time, place, and manner restrictions, the basic automated-call restriction has long
been understood to comport with First Amendment requirements. See, e.g., Gomez v. Campbell-Ewald Co.,
768 F.3d 871, 876-877 (9th Cir. 2014), aff ’d on other
grounds, 136 S. Ct. 663 (2016); Moser v. FCC, 46 F.3d
970, 975 (9th Cir.), cert. denied, 515 U.S. 1161 (1995).
That is because “the restriction of automated calling is
narrowly tailored to” the government’s “significant interest” in the “protection of privacy.” Gomez, 768 F.3d
at 876.
Because the government-debt exception is likewise
content-neutral, Congress’s amendment of the automatedcall restriction to include that exception does not change
the analysis. “[L]esser scrutiny” remains appropriate,
and the statute satisfies that scrutiny. Reed v. Town of
Gilbert, 135 S. Ct. 2218, 2232 (2015). In conducting
that First Amendment review, moreover, the Court
should be cognizant of the fact that the governmentdebt exception is not itself a restriction on speech,
but an exception to the automated-call restriction. The
government-debt exception further narrows the scope
of the automated-call restriction by allowing the use of

12
automated-dialing technology for a specific class of
calls. And “[i]t is always somewhat counterintuitive to
argue that a law violates the First Amendment by
abridging too little speech.” Williams-Yulee v. Florida
Bar, 135 S. Ct. 1656, 1668 (2015).
In some limited circumstances, “underinclusiveness
can raise ‘doubts about whether the government is in
fact pursuing the interest it invokes,’ ” or about whether
a law “actually advance[s]” that interest. WilliamsYulee, 135 S. Ct. at 1668 (citation omitted). But the
government-debt exception raises no such concerns.
The exception applies to a small fraction of the calls that
are otherwise subject to the automated-call restriction,
which continues to prevent millions of unwanted calls
every day. And because it applies only to calls made to
collect government-backed debt, it merely allows third
parties to do what the federal government could do
through its own personnel.
The federal government and its agencies are not
“person[s]” subject to the automated-call restriction.
47 U.S.C. 227(b)(1) (Supp. V 2017); see Campbell-Ewald
Co. v. Gomez, 136 S. Ct. 663, 672 (2016) (“The United
States and its agencies, it is undisputed, are not subject
to the TCPA’s prohibitions.”); cf. Return Mail, Inc. v.
United States Postal Serv., 139 S. Ct. 1853, 1861-1862
(2019) (“In the absence of an express statutory definition, the Court applies a ‘longstanding interpretive presumption that “person” does not include the sovereign.’ ”) (citation omitted). The calls that fall within the
exception thus are calls that the TCPA has always permitted the federal government and its agencies to make
using an automatic telephone dialing system or an artificial or prerecorded voice. The exception therefore

13
“does not do appreciable damage to the privacy interests underlying the TCPA.” App., infra, 38a (citation
omitted).
3. The government-debt exception advances a distinct and significant government interest in protecting
the public fisc. Estimates provided to Congress suggested that the exception could save the federal government $120 million over ten years. See Office of Mgmt.
& Budget, Exec. Office of the President, Fiscal Year
2016: Analytical Perspectives of the U.S. Government
127 tbl. 11-3, 128 (2015), https://go.usa.gov/xUtw2.
Given the government-debt exception’s narrow scope
and distinct purpose, the exception “raises no fatal underinclusivity concerns.” Williams-Yulee, 135 S. Ct. at
1668.
The court of appeals in Duguid v. Facebook, Inc.,
926 F.3d 1146 (9th Cir. 2019), petition for cert. pending,
No. 19-511 (filed Oct. 17, 2019), acknowledged the government’s interest in protecting the public fisc. See id.
at 1156. The court stated, however, that Congress
“could have accomplished the same goal in a contentneutral manner by basing the exception on the called
party’s preexisting relationship with the federal government,” rather than on the content of the call. Ibid.
(citation and internal quotation marks omitted).
It is true that, if Congress had excepted from the
TCPA’s automated-call restriction all calls made to persons with debts owed to or guaranteed by the federal
government, rather than simply calls made to collect
those debts, the exception could not plausibly be viewed
as content-discriminatory. A broader exception of that
sort, however, would deprive persons who owe
government-backed debts of the TCPA’s protection
even from automated calls that are unrelated to those

14
debts and thus unrelated to the protection of the public
fisc. As applied to such calls, the exception would sacrifice consumer privacy without furthering the countervailing interest that prompted Congress to enact the
government-debt exception. There is no sound reason
to fashion a First Amendment jurisprudence that would
encourage Congress to regulate in that manner.
4. After concluding that the government-debt exception violates the First Amendment, the court below
held that the proper remedy is to sever the exception
from the rest of the TCPA, leaving the automated-call
restriction intact. App., infra, 22a-24a. That holding is
correct and does not conflict with any decision of another court of appeals. Indeed, the court of appeals in
Duguid reached the same conclusion. 926 F.3d at 11561157.
The question whether the government-debt exception is severable from the rest of the TCPA therefore
does not independently satisfy the usual criteria for this
Court’s review. But if this Court determines that further review of the court of appeals’ constitutional holding is warranted, it would be appropriate for the Court
to consider the issue of the proper remedy for any First
Amendment violation as part of that review. The question presented in this petition accordingly encompasses
the subsidiary question whether the appropriate remedy for any constitutional infirmity would be to sever
the government-debt exception, rather than (as respondents argued below) to invalidate the TCPA’s
automated-call restriction.
That approach ensures that, if the Court grants review and affirms the Fourth Circuit’s constitutional
holding, it can decide the remedial issue and thereby obviate the need for further (and potentially extensive)

15
lower-court litigation of that question. Granting certiorari on the question so formulated would also ensure
that respondents retain a concrete stake in the outcome
of the proceedings, since respondents can achieve their
desired objective (i.e., removing the current legal barrier to their use of automated-dialing technology for
purposes other than the collection of governmentbacked debts) only if the Fourth Circuit’s severability
holding is reversed and the underlying automated-call
restriction is held to be invalid. Finally, the Court
would have the option of addressing the severability
issue first, and rejecting respondents’ challenge to
the automated-call restriction on the ground that the
proper remedy for any constitutional infirmity in the
government-debt exception would be to sever that exception.
B. The Question Presented Warrants This Court’s Review
In This Case

1. “[W]hen a lower court has invalidated a federal
statute,” this Court’s “usual” approach is to “grant[]
certiorari.” Iancu v. Brunetti, 139 S. Ct. 2294, 2298
(2019); see, e.g., United States v. Kebodeaux, 570 U.S.
387, 391 (2013); United States v. Morrison, 529 U.S. 598,
605 (2000). The Court has done so repeatedly in cases
presenting significant First Amendment questions,
even in the absence of a circuit conflict. See, e.g., Brunetti, supra; Matal v. Tam, 137 S. Ct. 1744 (2017);
United States v. Alvarez, 567 U.S. 709 (2012); Holder v.
Humanitarian Law Project, 561 U.S. 1 (2010); United
States v. Stevens, 559 U.S. 460 (2010); United States v.
Williams, 553 U.S. 285 (2008); Ashcroft v. ACLU,
542 U.S. 656 (2004). That practice is consistent with the
Court’s recognition that judging the constitutionality of
a federal statute is “the gravest and most delicate duty

16
that th[e] Court is called upon to perform.” Rostker v.
Goldberg, 453 U.S. 57, 64 (1981) (quoting Blodgett v.
Holden, 275 U.S. 142, 148 (1927) (opinion of Holmes, J.)).
The question presented has been and continues to be
litigated across the country. Like the Fourth Circuit in
this case, the Ninth Circuit has held that the governmentdebt exception violates the First Amendment and has
severed the exception from the rest of the TCPA. See
Duguid, 926 F.3d at 1152-1157; Gallion v. Charter
Commc’ns, Inc., 772 Fed. Appx. 604, 605 (9th Cir. 2019),
petition for cert. pending, No. 19-575 (filed Nov. 1,
2019). Although no court of appeals has upheld the
government-debt exception against a First Amendment
challenge, various district courts have done so. See,
e.g., D. Ct. Doc. No. 62, at 17-21, Schaevitz v. Braman
Hyundai, Inc., No. 17-cv-23890 (S.D. Fla. Mar. 25,
2019); Greenley v. Laborers’ Int’l Union of N. Am.,
271 F. Supp. 3d 1128, 1151 (D. Minn. 2017); D. Ct. Doc.
No. 58, at 7-9, Bonin v. CBS Radio, Inc., No. 16-cv-674
(E.D. Wis. Nov. 20, 2017); Mejia v. Time Warner Cable,
Inc., No. 15-cv-6445, 2017 WL 3278926, at *12-*17
(S.D.N.Y. Aug. 1, 2017).
2. Two other pending petitions for writs of certiorari—
in Facebook, Inc. v. Duguid, No. 19-511 (filed Oct. 17,
2019) (19-511 Pet.), and in Charter Communications,
Inc. v. Gallion, No. 19-575 (filed Nov. 1, 2019) (19-575
Pet.)—raise the same question as is presented here.
See 19-511 Pet. at i (seeking review on the question
“[w]hether the TCPA’s prohibition on calls made using
an [automatic telephone dialing system] is an unconstitutional restriction on speech, and if so whether the
proper remedy is to broaden the prohibition to abridge
more speech”); 19-575 Pet. at i-ii (similar).

17
The certiorari petition in Duguid, however, presents
an additional question of statutory interpretation, regarding the scope of the TCPA’s definition of “automatic telephone dialing system.” See 19-511 Pet. at ii.
As the petitioner in Duguid observes, resolution of that
statutory question in its favor would render unnecessary any consideration of the First Amendment and
severability questions in that case. See id. at 14 (explaining that consideration of the statutory question
“will allow the Court to * * * potentially avoid the constitutional questions altogether”); C.A. Doc. 84, at 3,
Duguid v. Facebook, Inc., No. 17-15320 (9th Cir. Aug.
23, 2019) (noting that “resolution of either question
could lead to dismissal of th[e] case”); see also 19-575
Pet. at 22 (arguing that the petition in Duguid “involves
a threshold question of statutory interpretation that
may prevent this Court from even reaching the constitutional question”). And the certiorari petition in Gallion seeks review of an unpublished memorandum disposition that merely applied the Ninth Circuit’s holding
in Duguid. Gallion, 772 Fed. Appx. at 605-606.
The certiorari petition in this case therefore provides
the best vehicle for this Court’s consideration of the
First Amendment and severability questions. Unlike
the certiorari petition in Duguid, this petition seeks review only of those questions, so granting review in this
case would ensure that the questions are properly before this Court. And unlike the certiorari petition in
Gallion, this petition seeks review of a published and
fully reasoned court of appeals decision. For these reasons, the Court should grant the certiorari petition in
this case, whether or not it also grants certiorari in
Duguid or Gallion.

18
CONCLUSION

The petition for a writ of certiorari should be granted.
Respectfully submitted.
NOEL J. FRANCISCO
Solicitor General
JOSEPH H. HUNT
Assistant Attorney General
MALCOLM L. STEWART
Deputy Solicitor General
FREDERICK LIU
Assistant to the Solicitor
General
MARK B. STERN
MICHAEL S. RAAB
LINDSEY POWELL
Attorneys

NOVEMBER 2019

APPENDIX A
UNITED STATES COURT OF APPEALS
FOR THE FOURTH CIRCUIT

No. 18-1588
AMERICAN ASSOCIATION OF POLITICAL CONSULTANTS,
INC.; DEMOCRATIC PARTY OF OREGON, INC.;
PUBLIC POLICY POLLING, LLC; WASHINGTON STATE
DEMOCRATIC CENTRAL COMMITTEE,
PLAINTIFFS-APPELLANTS
AND
TEA PARTY FORWARD PAC, PLAINTIFF

v.
FEDERAL COMMUNICATIONS COMMISSION;
WILLIAM P. BARR, IN HIS OFFICIAL CAPACITY
AS ATTORNEY GENERAL OF THE UNITED STATES,
DEFENDANTS-APPELLEES
Argued: Dec. 12, 2018
Decided: Apr. 24, 2019
Appeal from the United States District Court for the
Eastern District of North Carolina, at Raleigh.
JAMES C. DEVER III, District Judge. (5:16-cv-00252-D)
Before:
Judges.

KING, KEENAN, and QUATTLEBAUM, Circuit

KING, Circuit Judge:
The American Association of Political Consultants,
Inc. and three other plaintiffs (hereinafter the “Plaintiffs”) appeal from a summary judgment award made by
(1a)

2a
the district court to the defendants, the Federal Communications Commission (the “FCC”) and the Attorney
General (collectively the “Government”).
See Am.
Ass’n of Political Consultants v. Sessions, 323 F. Supp.
3d 737 (E.D.N.C. 2018) (the “Opinion”). 1 The Plaintiffs
initiated this litigation in May 2016 in the Eastern District of North Carolina, alleging that part of the Telephone Consumer Protection Act of 1991 (the “TCPA”)
contravenes the Free Speech Clause of the First
Amendment. As pertinent here, the TCPA prohibits
calls to cell phones by use of an automated dialing system or an artificial or prerecorded voice, subject to three
statutory exemptions (the “automated call ban”). The
Plaintiffs allege that one of the statutory exemptions to
the automated call ban—created by a 2015 TCPA
amendment—is facially unconstitutional under the Free
Speech Clause. That exemption authorizes automated
calls that relate to the collection of debts owed to or guaranteed by the federal government (the “debt-collection
exemption”). 2 According to the Plaintiffs, the free
speech infirmity of the debt-collection exemption is not

In addition to the American Association of Political Consultants,
Inc., the appellants here are the Democratic Party of Oregon, Inc.,
Public Policy Polling, LLC, and the Washington State Democratic
Central Committee. Those entities regularly engage in political activities, and many of those activities involve political communications
and speech. By way of example, the Plaintiffs conduct political
polls, seek to persuade and inform voters, solicit donations, and organize voter-turnout efforts and town hall events.
2
As reflected above, we use the term “Government”—with a capital “G”—to collectively refer to the two named defendants. On the
other hand, we generally refer to the government of the United
States by the generic term “federal government.”
1

3a
severable from the automated call ban and renders the
entire ban unconstitutional.
In awarding summary judgment to the Government
in March 2018, the Opinion rejected the free speech challenge interposed by the Plaintiffs. The district court applied strict scrutiny review to the debt-collection exemption and ruled that it does not violate the Free Speech
Clause. As explained below, we agree that strict scrutiny review applies in this case but conclude that the
debt-collection exemption does not satisfy such a review.
As a result, we agree with the Plaintiffs that the debtcollection exemption contravenes the Free Speech
Clause. In agreement with the Government, however,
we are satisfied to sever the flawed exemption from the
automated call ban. We therefore vacate the judgment
and remand.
I.
A.
Enacted in 1991, the TCPA was a response by Congress to the reactions of American consumers over intrusive and unwanted phone calls. As a result of congressional concern with automated phone calls, the automated call ban prohibits phone calls to cell phones that
use “any automatic telephone dialing system or an artificial prerecorded voice.”
See 47 U.S.C. §
3
227(b)(1)(A). The automated call ban does not, how-

The automated call ban, which is codified at § 227(b)(1)(A) of Title
47, provides, in pertinent part, that it shall be unlawful for a person:
3

to make any call (other than a call made for emergency purposes or made with the prior express consent of the called

4a
ever, reach and prohibit all calls made with those technologies. For example, the TCPA authorizes automated phone calls to cell phones if they satisfy one of the
statutory exemptions specified in the automated call
ban. When it was enacted in 1991, the TCPA created
two statutory exemptions to the ban, both of which are
yet in effect. Under the first exemption, if an automated call to a cell phone is initiated “for emergency
purposes,” it does not contravene the automated call ban
(the “emergency exemption”). See id. Pursuant to
the second statutory exemption, an automated call made
to a cell phone with “the prior express consent of the
called party” likewise does not violate the ban (the “consent exemption”). See id.
For more than twenty years, the emergency and consent exemptions were the only statutory exemptions to
the automated call ban. In 2015, however, Congress enacted the third statutory exemption—the debt-collection
exemption—and therein excepted from the ban all calls
to cell phones “made solely to collect a debt owed to or
guaranteed by the United States.” See Bipartisan
Budget Act of 2015, Pub. L. No. 114-74, § 301(a), 129 Stat.
party) using any automatic telephone dialing system or an artificial or prerecorded voice—
. . . .
(iii) to any telephone number assigned to a . . . cellular
telephone service . . . unless such call is made solely to collect a debt owed to or guaranteed by the United States. . . .
See 47 U.S.C. § 227(b)(1)(A). An “automatic telephone dialing system” is defined as equipment that “has the capacity (A) to store or
produce telephone numbers to be called, using a random or sequential number generator, and (B) to dial such numbers.” See id.
§ 227(a)(1).

5a
584, 588 (2015) (amending 47 U.S.C. § 227(b)(1)(A)(iii)). 4
In addition to the statutory exemptions, automated calls
made by the federal government itself are not barred by
the automated call ban. See Campbell-Ewald Co. v.
Gomez, 136 S. Ct. 663, 672 (2016) (“The United States
and its agencies, it is undisputed, are not subject to the
TCPA’s prohibitions.”). With the foregoing statutory
framework in mind, we turn to the proceedings in the
district court.
B.
In May 2016, the Plaintiffs filed this lawsuit in the
Eastern District of North Carolina, alleging, inter alia,
that the debt-collection exemption to the automated call
ban contravenes their free speech rights because it is a
content-based restriction on speech that fails to satisfy
strict scrutiny review. According to the complaint, the
debt-collection exemption creates a regime that permits
—and thereby unconstitutionally favors—a select group
of otherwise prohibited automated calls to cell phones.
The complaint also alleges that whether an automated
phone call satisfies the debt-collection exemption, and
thus escapes the prohibitions of the automated call ban,
depends on the call’s content. The Plaintiffs therefore
allege that the debt-collection exemption to the ban contravenes the Free Speech Clause.

In 1992, a year after its enactment of the TCPA, Congress
empowered the FCC to create regulatory exemptions to the automated call ban. See Telephone Disclosure & Dispute Resolution
Act, Pub. L. No. 102-556, § 402, 106 Stat. 4181, 4194-95 (1992) (codified in 47 U.S.C. § 227(b)(2)(C)). Utilizing that authority, the FCC
has promulgated six regulatory exemptions, which were not challenged in the district court.
4

6a
In 2017, the Plaintiffs and the Government each
moved in the district court for summary judgment. By
its Opinion of March 26, 2018, the court denied the summary judgment request of the Plaintiffs and awarded
summary judgment to the Government. In so ruling,
the court rejected the Free Speech Clause challenge of
the Plaintiffs. At its outset, the Opinion correctly recognized that the Free Speech Clause prohibits a restriction on speech that is predicated on “ ‘its message,
its ideas, its subject matter, or its content.’ ” See
AAPC, 323 F. Supp. 3d at 742 (quoting Reed v. Town of
Gilbert, 135 S. Ct. 2218, 2226 (2015)). As the Opinion
explained, such content-based speech restrictions “ ‘are
presumptively unconstitutional’ ” and are only permissible if they satisfy strict scrutiny review. See id. (quoting Reed, 135 S. Ct. at 2226). That is, the Government
must establish that content-based speech restrictions
have been narrowly tailored to further a compelling governmental interest.
Although the Opinion ruled that the debt-collection
exemption to the automated call ban is constitutional, it
initially recognized the exemption as a “content-based
speech restriction.” See AAPC, 323 F. Supp. 3d at 743.
As the district court explained, the debt-collection exemption “makes content distinctions on its face.” Id.
To support that proposition, the court drew on a decision
from a California court and explained that whether an
automated phone call to a cell phone qualifies for the exemption “derives from the call’s communicative content,” and requires a court to review such content. Id.
(citing Gallion v. Charter Commc’ns Inc., 287 F. Supp.
3d 920, 927 (C.D. Cal. 2018)).

7a
In accepting the proposition that the debt-collection
exemption makes content-based distinctions, the Opinion rejected—for two reasons—the Government’s contention that the exemption is based only on “the relationship between a caller and a recipient,” and not on the
call’s content. See AAPC, 323 F. Supp. 3d at 743.
First, the Opinion observed that the “ ‘plain language of
the [debt-collection exemption] makes no reference
whatsoever to the relationship of the parties.’ ” Id.
(quoting Gallion, 287 F. Supp. 3d at 927). Second, the
district court explained that the Government sought to
justify the exemption on the basis of the relationship between the federal government and the debtor, i.e., the
call-recipient. As the Opinion recognized, however,
the debt-collection exemption is not limited to calls from
the federal government to the cell phones of debtors.
The exemption also provides statutory protection for “ ‘a
third party [who] has no preexisting relationship
with the debtor [call-recipient].’ ” Id. (quoting Gallion,
287 F. Supp. 3d at 927). As such, the court was satisfied that the debt-collection exemption is predicated on
the subject matter of the phone call rather than on the
caller’s relationship to the recipient thereof.
Notwithstanding the content-based restriction imposed by the debt-collection exemption, the Opinion
ruled that it does not contravene the Free Speech
Clause. The district court thus rejected the proposition advanced by the Plaintiffs that the exemption undermines the narrow tailoring of the automated call ban.
In that regard, the court agreed with the Government
that the exemption does not subvert the privacy interests furthered by the ban. The Opinion therefore con-

8a
cluded that the debt-collection exemption to the automated call ban satisfies strict scrutiny review. 5 That is,
the exemption does not hinder the automated call ban
from furthering the compelling governmental interest of
protecting “the well-being, tranquility, and privacy” of
American consumers in a narrowly tailored fashion.
See AAPC, 323 F. Supp. 3d at 744.
Finally, the district court rebuffed the argument of
the Plaintiffs that less restrictive alternatives would
equally advance the purposes of the automated call ban.
The Opinion explained that alternatives proposed by the
Plaintiffs—such as time-of-day limitations, mandatory
caller identity disclosure, and do-not-call lists—would
not further the privacy interests underlying the TCPA
and were otherwise implausible. Because the court
ruled that the debt-collection exemption to the automated call ban satisfies strict scrutiny and does not contravene the Free Speech Clause, it awarded summary
judgment to the Government.
The Plaintiffs have noted a timely appeal, which has
been briefed and argued. Being satisfied that the district court had subject matter jurisdiction and rendered
a final decision, we possess appellate jurisdiction pursuant to 28 U.S.C. § 1291. 6
In ruling that strict scrutiny review applies to the Plaintiffs’ free
speech challenge, the Opinion rejected the Government’s contention
that the less demanding standard of intermediate scrutiny is the proper level of review.
6
In the district court, the Government moved to dismiss the complaint for lack of subject matter jurisdiction, interposing two contentions. First, the Government maintained that the Plaintiffs’ claims
were not within the jurisdiction of the district court because those
claims also challenged the FCC’s regulatory exemptions. Such a
5

9a
II.
We review de novo legal rulings made by a district
court in connection with a summary judgment award.
See Bostic v. Schaefer, 760 F.3d 352, 370 (4th Cir. 2014).
In so doing, we apply “the same legal standards as the
district court,” under which summary judgment is appropriate where there is no genuine dispute of material
fact, “and the movant is entitled to judgment as a matter
of law.” See Lawson v. Union Cty. Clerk of Court,
828 F.3d 239, 247 (4th Cir. 2016) (citations and internal
quotation marks omitted). Being confronted with a facial constitutional challenge to a statute, we review the
various issues de novo. See Maryland v. Universal
Elections, Inc., 729 F.3d 370, 375 (4th Cir. 2013).
III.
A.
1.
Although the Plaintiffs agree with the district court
that the debt-collection exemption to the automated call
ban constitutes a content-based restriction on speech,
they challenge the court’s ruling that the exemption satisfies strict scrutiny review. As support, they contend
that the debt-collection exemption does not further any
compelling governmental interest.
Moreover, they
challenge, according to the Government, had to be initiated in the
appropriate court of appeals. See 28 U.S.C § 2342. Second, the
Government argued that the Plaintiffs lacked Article III standing to
sue. In response to the dismissal motion, the Plaintiffs explicitly
abandoned any challenge to the regulatory exemptions. The district court then rejected both jurisdictional contentions and ruled
that it possessed subject matter jurisdiction. On appeal, the Government does not challenge either of the jurisdictional rulings.

10a
maintain that, if a compelling governmental interest is
furthered, the exemption does not do so in the least restrictive manner, as required under strict scrutiny review. According to the Plaintiffs, the debt-collection
exemption to the automated call ban imposes an impermissible content-based restriction on speech, and the
entire ban—not just the debt-collection exemption—
must therefore be invalidated. In other words, the
Plaintiffs maintain that severance of the exemption, if it
is constitutionally flawed, is not a permissible remedy. 7
2.
In order to properly assess and dispose of the Plaintiffs’ Free Speech Clause challenge to the debt-collection
exemption, we must address three issues. First, we must
decide whether, on one hand, the debt-collection exemption is a content-based speech restriction subject to
In addition to their contention that the debt-collection exemption
renders the automated call ban unconstitutional, the Plaintiffs seek
in their appellate submissions to pursue two other arguments.
First, they attempt to resurrect the proposition that the regulatory
exemptions are content-based restrictions that fail strict scrutiny.
In the district court, however, the Plaintiffs explicitly disclaimed any
challenge to the regulatory exemptions. We are therefore unable
to consider that abandoned contention. See Meyer v. Berkshire Life
Ins. Co., 372 F.3d 261, 265 n.2 (4th Cir. 2004) (explaining binding nature of judicial concessions). Second, the Plaintiffs appear to assert
that the FCC’s authority to promulgate regulatory exemptions to
the automated call ban supports their contention that it is unconstitutional. The Plaintiffs, however, have not sufficiently briefed that
contention. They mention it only in passing and thus have waived
it. See Grayson O Co. v. Agadir Int’l LLC, 856 F.3d 307, 316 (4th Cir.
2017) (explaining that failure to properly develop appellate contention, or merely taking a “ ‘passing shot’ ” at it, waives the argument
(quoting Brown v. Nucor Corp., 785 F.3d 895, 923 (4th Cir. 2015))).
In these circumstances, we do not further address those issues.
7

11a
strict scrutiny review, or whether, on the other hand, it
constitutes a content-neutral speech restriction subject
to intermediate scrutiny analysis. See Reed v. Town of
Gilbert, 135 S. Ct. 2218, 2227 (2015). Second, we must
evaluate whether the debt-collection exemption to the
automated call ban survives the applicable level of scrutiny. See id. at 2231. Finally, if the debt-collection exemption impermissibly infringes on free speech rights,
we must identify the appropriate remedy for that infringement. That is, we must then decide whether to
strike the automated call ban in its entirety, or whether
to simply sever the flawed exemption therefrom. See
Regan v. Time, Inc., 468 U.S. 641, 652-53 (1984).
B.
1.
a.
In the First Amendment context, a statutory provision constitutes a content-based speech restriction if it
“applies to particular speech because of the topic discussed or the idea or message expressed.” See Reed,
135 S. Ct. at 2227. Such a speech restriction is presumptively unconstitutional and can only be justified if
it is narrowly tailored to further a compelling governmental interest. See id. To determine whether a statutory provision imposes a content-based speech restriction, the Supreme Court has identified a two-prong
inquiry. As the Court explained in its Reed decision in
2015, the inquiry’s first prong requires a reviewing court
to decide whether the statute is content-based on its face
—that is, whether the text thereof distinguishes between speech based on content or subject matter. See
id. at 2228. If the statute is determined to be facially

12a
content-based, the court must conduct a strict scrutiny
review.
If the statute is facially content-neutral,
however, it must satisfy the second prong of the Reed
inquiry in order to be reviewed under intermediate
scrutiny—a less demanding level of scrutiny that generally applies to content-neutral restrictions.
Under
Reed’s second prong, a statute constitutes a contentbased restriction on speech if it “cannot be justified
without reference to the content of the regulated
speech,” or if it was adopted because the government
disagrees with the message conveyed thereby. Id. at
2227 (internal quotation marks omitted) (quoting Ward
v. Rock Against Racism, 491 U.S. 781, 791 (1989)).
b.
Analyzed under Reed’s first prong, the debt-collection
exemption to the automated call ban facially distinguishes between phone calls on the basis of their content. As that exemption specifies, otherwise prohibited automated calls made to cell phones “solely to collect a debt owed to or guaranteed by the United States”
do not violate the automated call ban and are legally permissible. See 47 U.S.C. § 227(b)(1)(A)(iii). But automated calls made to cell phones that deal with other
subjects—such as efforts to collect a debt neither owed
to nor guaranteed by the United States—do not qualify
for the debt-collection exemption and are prohibited by
the automated call ban. A proper application of the
debt-collection exemption therefore “depend[s] entirely
on the communicative content of the [call]” and, as the
district court ruled, constitutes a content-based speech
restriction that is subject to strict scrutiny. See Reed,
135 S. Ct. at 2227.

13a
The content-based nature of the debt-collection exemption is demonstrated by an illustrative example.
As explained by the district court, a private debt collector could make two nearly identical automated calls to
the same cell phone using prohibited technology, with
the sole distinction being that the first call relates to a
loan guaranteed by the federal government, while the
second call concerns a commercial loan with no government guarantee. Although the first automated call
would satisfy the debt-collection exemption and not be
subject to the automated call ban, the second call would
not satisfy the exemption and would be illegal. The legality of those phone calls, due solely to the debt-collection
exemption, thus depends on their subject matter (i.e.,
their content).
c.
Seeking to avoid a judicial determination that the debtcollection exemption is a content-based speech restriction, the Government maintains on appeal that the exemption “is premised principally on the relationship between the [federal] government and the person being
called.” See Br. of Appellees 6. That relationship, according to the Government, emanates from a loan or
guarantee arrangement between the federal government and the debtor. Because the debt-collection exemption applies to automated phone calls that have a
nexus with a government-debtor arrangement—and the
relationship it creates—the applicability of the exemption turns on the debtor’s relationship with the federal
government. The Government therefore contends that
whether an automated phone call is authorized by the
debt-collection exemption, and thus not prohibited by

14a
the automated call ban, depends on the relationship of
the parties thereto, and not on the content thereof. 8
Like the district court, however, we are persuaded
that the statutory text of the debt-collection exemption
undercuts the Government’s relationship-based contention. The text of the exemption makes no reference to
the relationship between the caller and the recipient of
the automated phone call. To be sure, a relationship is
created when a debtor owes a debt that is guaranteed by
the federal government. But the restriction imposed
by the debt-collection exemption—and the carveout it
creates—does not regulate on the basis of that relationship. Instead, the exemption regulates on the basis of
the content of the phone call. Under the debt-collection
exemption, the relationship between the federal government and the debtor is only relevant to the subject matter of the call. In other words, the debt-collection exemption applies to a phone call made to the debtor
because the call is about the debt, not because of any
relationship between the federal government and the
debtor. And the Supreme Court has recognized that
“regulation of speech is content based if a law applies to
particular speech because of the topic discussed.” See
Reed, 135 S. Ct. at 2227. In these circumstances, the

As part of its relationship-based argument, the Government
emphasizes that the TCPA does not apply to automated calls made
by the federal government. See Campbell-Ewald Co. v. Gomez,
136 S. Ct. 663, 672 (2016) (“The United States and its agencies, it is
undisputed, are not subject to the TCPA’s prohibitions.”). It contends that the debt-collection exemption merely permits persons
making calls on behalf of the federal government to “use the same
means” that the United States or its agencies could use. See Br.
of Appellees 6-7. We are not persuaded by that proposition.
8

15a
debt-collection exemption to the automated call ban constitutes a content-based speech restriction.
2.
a.
Because the debt-collection exemption is a contentbased restriction on speech, it can only pass constitutional muster if it satisfies a strict scrutiny review.
See Reed, 135 S. Ct. at 2231. Strict scrutiny is a rigorous standard of review that requires the speech restriction to advance a sufficiently important governmental objective—that is, an objective of the “highest
order.” See id. at 2232; see also McCutcheon v. FEC,
572 U.S. 185, 199 (2014). Any content-based restriction
must also be narrowly tailored, that is, “closely drawn,” in
order to fit that objective. See McCutcheon, 572 U.S. at
199. Thus, in order to survive strict scrutiny, the Government must show that the debt-collection exemption has
been narrowly tailored to further a compelling governmental interest. See Reed, 135 S. Ct. at 2231.
In conducting a strict scrutiny review, we are obliged
to examine the speech restriction for an infirmity that is
commonly referred to as “underinclusiveness.” See
Reed, 135 S. Ct. at 2232. An “underinclusive” restriction is one that covers too little speech, thereby leaving
“appreciable damage to the government’s interest
unprohibited.” See Cahaly v. Larosa, 796 F.3d 399,
405 (4th Cir. 2015) (citations and internal quotation

16a
marks omitted). An underinclusive restriction thus
fails a strict scrutiny review. See id. at 405-06. 9
Put succinctly, the debt-collection exemption fails
strict scrutiny review. It is fatally underinclusive for
two related reasons. First, by authorizing many of the
intrusive calls that the automated call ban was enacted
to prohibit, the debt-collection exemption subverts the
privacy protections underlying the ban. Second, the
impact of the exemption deviates from the purpose of
the automated call ban and, as such, it is an outlier among
the other statutory exemptions.
b.
In seeking to justify the debt-collection exemption,
the Government maintains that the automated call ban
(including that exemption) furthers a compelling governmental interest by protecting personal and residential privacy. Relying on congressional findings supporting the TCPA, the Government argues that automated calls are “the most intrusive” type of phone calls.
See Br. of Appellees 20. By “generally preventing” the
use of such calls to cell phones, the Government contends that the automated call ban protects and shelters
the privacy interests of American consumers. See id.
It also argues that, as part of the automated call ban, the

Although an “underinclusive” content-based restriction applies
to too little speech, an impermissibly “overinclusive” restriction regulates too much speech and unnecessarily circumscribes protected expression. See Cahaly, 796 F.3d at 405. Because the debt-collection
exemption to the automated call ban is fatally “underinclusive,”
we need not assess any issue of “overinclusiveness.” See Reed,
135 S. Ct. at 2231-32 (examining only underinclusiveness of speech
restriction).
9

17a
debt-collection exemption does not undermine the privacy protection efforts embodied in the ban. According to the Government, that exemption applies only to a
“narrow category of calls.” See id. at 18. It therefore
asserts that the debt-collection exemption does not “appreciabl[y] damage” the privacy interests underlying
the automated call ban. See id.
We are unpersuaded by the Government’s compelling interest argument. Again, the debt-collection exemption does not further the purpose of the automated
call ban in a narrowly tailored fashion. Congress implemented the ban in order to protect privacy interests.
See S. Rep. No. 102-178, at 1, 5 (1991) (explaining that
purpose of TCPA is to protect “privacy interests”);
see also Mims v. Arrow Fin. Servs., LLC, 565 U.S. 368,
372 (2012) (discussing congressional findings supporting
TCPA prohibitions). The debt-collection exemption,
however, undercuts those privacy protections. In fact,
the exemption applies in a manner that runs counter to
the privacy interests that Congress sought to safeguard.
Significantly, the potential reach of the debt-collection
exemption belies the Government’s asserted “narrow”
framing of it. According to the FCC, the federal government, by the end of fiscal year 2016, had either guaranteed or was owed nearly eighty-percent of all outstanding student loan debt. See In re Rules & Regulations Implementing the TCPA, 31 FCC Rcd. 9074, 9077
n.28 (Aug. 11, 2016). An FCC report also revealed that
more than 41 million borrowers owed over one trillion
dollars in federal student loans. See id. Notably, student loan debt, which is generally handled through the
Department of Education, is but one category of debt

18a
that is guaranteed by or owed to the federal government. See id. at 9077-78. Various other categories of
such debt are handled through other departments,
which include the Department of Agriculture, the Department of Housing and Urban Development, and the
Department of Health and Human Services. See id.
Thus, millions of debtors owe debts about which third
parties can make otherwise prohibited calls under the
debt-collection exemption. The exemption is not at all
“narrow” when it is assessed in that context.
Because of the expansive reach of the debt-collection
exemption, it is woefully underinclusive and does not
serve the compelling governmental interest of protecting privacy in a narrow fashion. The exemption thus
cannot be said to advance the purpose of privacy protection, in that it actually authorizes a broad swath of intrusive calls. In so doing, the debt-collection exemption exposes millions of American consumers to some of
the most disruptive phone calls they receive. The exemption therefore erodes the privacy protections that
the automated call ban was intended to further. See
Williams-Yulee v. Florida Bar, 135 S. Ct. 1656, 1668
(2015) (recognizing that speech restrictions with vast
carveouts can undermine compelling governmental interest). Although theoretically limited by the number
of debtors owing loans guaranteed by the federal government, the debt-collection exemption authorizes a
nearly “unlimited proliferation” of disruptive and intrusive automated debt-collection efforts.
See Reed,
135 S. Ct. at 2231. 10

In addition to contending that the automated call ban—including
the debt-collection exemption—advances an interest in protecting
10

19a
c.
Likewise, a comparative analysis of the automated phone calls authorized under the debt-collection
exemption with those permissible under the other
statutory exemptions shows the detrimental effect of
debt-collection calls on the privacy interests that underlie the automated call ban. For example, phone calls authorized under the consent exemption require “the prior
express consent of the called party.” See 47 U.S.C.
§ 227(b)(1)(A). Because consent generally diminishes
any expectation of privacy, phone calls that qualify for
the consent exemption are less intrusive than other automated calls. See Norris v. Premier Integrity Sols.,
Inc., 641 F.3d 695, 699 (6th Cir. 2011) (explaining that
consent diminishes expectation of privacy in constitutional context). On the other hand, the FCC itself has
acknowledged that debt-collection calls are among the
most intrusive, disruptive, and complained of phone

privacy, the Government interposes another justification for the
debt-collection exemption. It maintains that the exemption protects the public fisc by aiding in the collection of debts owed to the
federal government, plus other debts for which the government is
possibly on the hook. Assuming the debt-collection exemption furthers such an interest, however, it is not narrowly tailored to that
end and must be rejected. That is, the federal government has less
restrictive alternatives at its disposal to collect such debts. See
United States v. Playboy Entm’t Grp., Inc., 529 U.S. 803, 813 (2000)
(explaining that First Amendment requires the use of less restrictive alternatives to content-based speech restrictions). And such
alternatives could be used without running afoul of the automated
call ban. First, the federal government could secure consent from the
debtors to make debt-collection calls. See 47 U.S.C. § 227(b)(1)(A).
Second, it could place the calls itself, in that the federal government
is not subject to the automated call ban.

20a
calls made to American consumers. 11 In fact, the FCC
receives more complaints about debt-collection phone
calls than calls “relating to . . . any other industry.”
See In re Rules & Regulations Implementing the TCPA,
31 FCC Rcd. at 9077 (explaining that, in 2015, FCC received over 900,000 complaints about debt-collection calls).
The automated phone calls authorized under the
emergency exemption also contrast sharply with debtcollection calls. In order to qualify for the emergency
exemption, phone calls must be “necessary in any situation affecting the health and safety” of Americans. See
47 C.F.R. § 64.1200(f )(4). Emergency automated phone
calls therefore differ from debt-collection calls in three
important ways. First, emergency calls serve the vital
purpose of protecting the safety and welfare of Americans, and the debt-collection calls lack any similarly important purpose. See ACA Int’l v. FCC, 885 F.3d 687,
714 (D.C. Cir. 2018) (contrasting debt-collection calls
with emergency calls). Second, automated phone calls
made under the emergency exemption are much less
likely to negatively impact Americans’ sense of privacy.
See In re TCPA, 7 FCC Rcd. 2736, 2738 (Apr. 17, 1992)
(explaining that emergency calls are only made when “it
is in the public interest to convey information to consumers concerning health or safety”). Third, such emergency calls are generally made less often because they
“must be about a bona fide emergency that is relevant
Beyond its acknowledgement of the disruption caused by debtcollection calls, the FCC recognizes that the proliferation of automated phone calls under the debt-collection exemption could “magnify consumer harms arising from debt collection calls.” See In
re Rules & Regulations Implementing the TCPA, 31 FCC Rcd. at
9077. For example, such phone calls render American consumers
more susceptible to telephone scams. See id.
11

21a
to the called party.” See In re Rules & Regulations
Implementing the TCPA, 31 FCC Rcd. 9054, 9063 n.76
(Aug. 4, 2016) (emphasizing that emergency exemption
“will not promote the proliferation of unwanted” calls).
Unlike the consent and emergency exemptions, the
debt-collection exemption impedes the privacy interests
of the automated call ban. The debt-collection exemption is thus an outlier among the statutory exemptions.
The divergence between the debt-collection exemption
and the other two exemptions shows that the debtcollection exemption is incompatible with the privacy interests justifying the ban.
d.
As the Supreme Court emphasized in its Reed decision, a “ ‘law cannot be regarded as protecting an interest of the highest order, and therefore as justifying a restriction on truthful speech, when it leaves appreciable
damage to that supposedly vital interest unprohibited.’ ”
See 135 S. Ct. at 2232 (quoting Republican Party of
Minn. v. White, 536 U.S. 765, 780 (2002)). The contentbased loophole created by the debt-collection exemption
does what the Reed Court condemned. See WilliamsYulee, 135 S. Ct. at 1668 (explaining that underinclusive
restrictions “can raise ‘doubts about whether the government is in fact pursuing the interest it invokes’ ”
(quoting Brown v. Entm’t Merchs. Ass’n, 564 U.S. 786,
802 (2011)); White, 536 U.S. at 780 (recognizing that a
restriction on speech might permit so much of the objectionable speech as to “render belief in that purpose a
challenge to the credulous”). In these circumstances,
the debt-collection exemption fails to satisfy strict scru-

22a
tiny, constitutes an unconstitutional content-based restriction on speech, and therefore violates the Free
Speech Clause.
3.
a.
In that the debt-collection exemption contravenes
the Free Speech Clause, we must also consider and identify the impact of that ruling on the balance of the automated call ban. Because the district court ruled that
the exemption satisfies strict scrutiny, it had no reason
to address the question of severance. Anticipating that
we might rule in favor of the Plaintiffs, however, the parties have addressed the severance issue on appeal. 12
The Plaintiffs maintain in their appellate submissions
that the constitutionally flawed debt-collection exemption invalidates the entirety of the automated call ban,
rendering severance of the debt-collection exemption
improper. The Government argues, however, that the
controlling authorities require a severance of the exemption from the automated call ban.
For several reasons, we agree with the Government
on the severance issue. First and foremost, the explicit
directives of the Supreme Court and Congress strongly
support a severance of the debt-collection exemption from
the automated call ban. Furthermore, the ban can oper-

Although we could remand the severance issue for resolution by
the district court in the first instance, we will not do so. In these
circumstances, the issue is straightforward, and we prefer to resolve
it now. See Costco Wholesale Corp. v. Maleng, 522 F.3d 874, 886
(9th Cir. 2008) (deciding severance issue on appeal because, inter
alia, merits and severance were “intimately tied”).
12

23a
ate effectively in the absence of the debt-collection exemption, which is clearly an outlier among the statutory exemptions.
b.
In circumstances such as these, the Supreme Court
has recognized that severance is the preferred remedy.
As the Chief Justice explained in the Court’s NFIB v.
Sebelius decision, if Congress wants the balance of a
statute to stand when one aspect is constitutionally
flawed, a reviewing court “must leave the rest of the
[statute] intact.” See 567 U.S. 519, 587 (2012). By
severing the flawed portion of a statute, the court can
limit the impact of its ruling of constitutional infirmity.
See Ayotte v. Planned Parenthood of N. New Eng.,
546 U.S. 320, 328 (2006); United States v. Under Seal,
819 F.3d 715, 721-22 (4th Cir. 2016) (recognizing that
severance of a flawed portion of a statute prevents a
court from nullifying too much of that enactment). The
general rule is thus “ ‘that partial . . . invalidation
[of a statute] is the required course.’ ” See Free Enter.
Fund v. Pub. Co. Accounting Oversight Bd., 561 U.S.
477, 508 (2010) (quoting Brockett v. Spokane Arcades,
Inc., 472 U.S. 491, 504 (1985)).
Complementing the Supreme Court’s strong preference for a severance in these circumstances, Congress
has explicitly mandated that, if a TCPA provision is determined to be constitutionally infirm, severance is the
appropriate remedy. That is, Congress has directed
that, if any part of the TCPA “is held invalid, the remainder . . . shall not be affected.” See 47 U.S.C. § 608.
That severability provision eases our inquiry on the severance issue and creates “a presumption that Congress
did not intend the validity of the statute in question to

24a
depend on the validity of the constitutionally offensive
provision.” See Alaska Airlines, 480 U.S. at 686 (citing
INS v. Chadha, 462 U.S. 919, 932 (1983)). As a result,
severance of the debt-collection exemption from the balance of the automated call ban will comply with the explicit directive of Congress and with controlling Supreme Court precedent.
We are also satisfied that a severance of the debtcollection exemption will not undermine the automated
call ban. For twenty-four years, from 1991 until 2015,
the automated call ban was “fully operative.” Free Enter. Fund, 561 U.S. at 509 (citations and internal quotation marks omitted). As a result, the Plaintiffs simply
cannot show that excising the debt-collection exemption
will hamper the function of the ban. See Alaska Airlines, 480 U.S. at 686 (explaining that only “strong evidence” overcomes presumption created by severability
clause). In these circumstances, we agree with the Government and direct the severance of the debt-collection
exemption from the balance of the automated call ban.
IV.
Pursuant to the foregoing, we vacate the district court’s
award of summary judgment to the Government. We
also direct the severance of the debt-collection exemption
from the balance of the automated call ban and remand for
such further proceedings as may be appropriate.
VACATED AND REMANDED

25a
APPENDIX B
UNITED STATES DISTRICT COURT
FOR THE EASTERN DISTRICT OF NORTH CAROLINA
WESTERN DIVISION

No. 5:16-CV-252-D
AMERICAN ASSOCIATION OF POLITICAL CONSULTANTS,
DEMOCRATIC PARTY OF OREGON, INC., PUBLIC POLICY
POLLING, LLC, TEA PARTY FORWARD PAC,
AND WASHINGTON STATE DEMOCRATIC CENTRAL
COMMITTEE, PLAINTIFFS
v.
JEFFERSON SESSIONS, ATTORNEY GENERAL OF THE
UNITED STATES, AND FEDERAL COMMUNICATIONS
COMMISSION, DEFENDANTS
Mar. 24, 2018
ORDER

On May 12, 2016, the American Association of Political Consultants, Inc., the Democratic Party of Oregon,
Inc., Public Policy Polling, LLC, the Tea Party Forward
PAC, and the Washington State Democratic Central
Committee (collectively, “plaintiffs”) sued United States
Attorney General Loretta Lynch in her official capacity
and the Federal Communications Commission (“the

26a
FCC”) (collectively, “defendants”) [D.E. 1]. 1 On August 5, 2016, plaintiffs amended their complaint [D.E.
18]. Plaintiffs contend that the autodialing ban in
47 U.S.C. § 227(b)(1)(A)(iii) of the Telephone Consumer
Protection Act of 1991, as amended (“TCPA”) violates
the First Amendment. See Am. Compl. [D.E. 18] ¶¶ 2,
36-63. On September 2, 2016, defendants moved to dismiss plaintiffs’ amended complaint for lack of subjectmatter jurisdiction [D.E. 22] and filed a memorandum in
support [D.E. 23]. See Fed. R. Civ. P. 12(b)(1). On
March 15, 2017, the court denied defendants’ motion to
dismiss [D.E. 26].
On May 19, 2017, plaintiffs moved for summary judgment [D.E. 30] and filed a memorandum in support
[D.E. 31 ]. On June 19, 2017, defendants responded in
opposition [D.E. 33], cross-moved for summary judgment [D.E. 34], and filed a memorandum in support
[D.E. 35]. On July 5, 2017, plaintiffs responded and replied [D.E. 36]. On July 20, 2017, defendants replied
[D.E. 39]. As explained below, this court joins the five
other United States District Courts that have addressed
the issue and holds that 47 U.S.C. § 227(b)(1)(A)(iii) does
not violate the First Amendment. See Gallion v. Charter Commc’ns Inc., No. 5:17-cv-01361-CAS(KKx), 2018
WL 1135386, at*4-7 (C.D. Cal. Feb. 26, 2018) (unpublished), appeal docketed, No. 18-80031 (9th Cir. Mar. 8,
2018); Greenley v. Laborers’ Int’l Union of N. Am.,
271 F. Supp. 3d 1128, 1145-51 (D. Minn. 2017); Mejia v.
On February 19, 2017, Jefferson Sessions became Attorney General of the United States. A public officer’s “successor is automatically substituted as a party.” Fed. R. Civ. P. 25(d). On July 11,
2017, Tea Party Forward withdrew from this lawsuit. See [D.E. 37,
38].
1

27a
Time Warner Cable Inc., 15-CV-6445 (JPO), 15-CV-6518
(JPO), 2017 WL 3278926, at *12-17 (S.D.N.Y. Aug. 1,
2017) (unpublished); Holt v. Facebook, Inc., 240 F. Supp.
3d 1021, 1032-34 (N.D. Cal. 2017), appeal docketed No.
17-80086 (9th Cir. May 12, 2017); Brickman v. Facebook,
Inc., 230 F. Supp. 3d 1036, 1043-49 (N.D. Cal. 2017).
Thus, the court grants defendants’ motion for summary
judgment.
I.
After holding numerous hearings and compiling extensive evidence, Congress enacted the TCPA to protect
the privacy interests of residential telephone subscribers. See Telephone Consumer Protection Act of 1991,
Pub. L. No. 102-243 § 2(10) (1991). Congress found that
“[t]echnologies that might allow consumers to avoid receiving [robocalls] are not universally available, are
costly, are unlikely to be enforced, or place an inordinate
burden on the consumer.” Id. § 2(11). In enacting the
TCPA, Congress recognized that every call, whether to
a phone at home or in a person’s pocket, ‘‘uses some of
the phone owner’s time and mental energy, both of
which are precious.” Patriotic Veterans, Inc. v. Zoeller, 845 F.3d 303, 305-06 (7th Cir. 2017); see Moser v.
FCC, 46 F.3d 970, 972 (9th Cir. 1995); Mey v. Venture
Data, LLC, 245 F. Supp. 3d 771, 777-80 (N.D. W. Va
2017).
The TCPA makes it unlawful
to make any call (other than a call made for emergency purposes or made with the prior express consent of the called party) using any automatic telephone dialing system or an artificial or prerecorded
voice—to any telephone number assigned to a paging

28a
service, cellular telephone service, specialized mobile
radio service, or other radio common carrier service,
or any service for which the called party is charged
for the call, unless such call is made solely to collect
a debt owed to or guaranteed by the United States[.]
47 U.S.C. § 227(b)(1)(A)(iii); see Telephone Consumer
Protection Act of 1991, Pub. L. No. 102-243 § 2(12) (1991).
In 2015, Congress added the final clause of the TCPA,
which exempts calls made solely to collect a debt owed
to or guaranteed by the United States. See Woods v.
Santander Consumer USA Inc., No. 2:14-cv-02104MHH, 2017 WL 1178003, at *3 (N.D. Ala. Mar. 30, 2017)
(unpublished); Bipartisan Budget Act of 2015, Pub. L.
No. 114-74 § 301, 129 Stat. 584, 588 (2015).
The TCPA authorizes the FCC to implement regulations that may exempt some calls from this subsection.
The [FCC] shall prescribe regulations to implement
the requirements of this subsection. In implementing the requirements of this subsection, the [FCC]—
(A)

shall consider prescribing regulations to allow
businesses to avoid receiving calls made using
an artificial or prerecorded voice to which they
have not given their prior express consent;

(B)

may, by rule or order, exempt from the requirements of paragraph (1)(B) of this subsection,
subject to such conditions as the Commission
may prescribe—
(i)

calls that are not made for a commercial
purpose; and

29a
(ii)

such classes or categories of calls made for
commercial purposes as the Commission
determines—
(I)

will not adversely affect the privacy
rights that this section is intended to
protect; and

(II) do not include the transmission of any
unsolicited advertisement;
(C)

may, by rule or order, exempt from the requirements of paragraph (1)(A)(iii) of this subsection
calls to a telephone number assigned to a cellular telephone service that are not charged to the
called party, subject to such conditions as the
Commission may prescribe as necessary in the
interest of the privacy rights this section is intended to protect[.]

47 U.S.C. § 227(b)(2); see Telephone Consumer Protection Act of 1991, Pub. L. No. 102-243 § 2(13) (1991)
(“While the evidence presented to the Congress indicates that automated or prerecorded calls are a nuisance
and an invasion of privacy, regardless of the type of call,
the Federal Communications Commission should have
the flexibility to design different rules for those types of
automated or prerecorded calls that it finds are not considered a nuisance or invasion of privacy, or for noncommercial calls, consistent with the free speech protections
embodied in the First Amendment of the Constitution.”).
Plaintiffs are political organizations or polling organizations and want to be able to use an autodialer and prerecorded messages to convey and receive information.
Using an autodialer and prerecorded messages costs a
lot less than hiring and paying human beings to call a

30a
telephone number and (1) either obtain express consent
of the called party for a prerecorded message or (2) convey or receive information.
In support of their argument that the TCPA’s autodialing ban violates the First Amendment, plaintiffs cite
statutory exceptions from the ban in the TCPA and exemptions from the ban in FCC orders. See Am. Compl.
¶¶ 22, 28-35. The statutory exceptions include calls made
with the express consent of the called party, calls made
for emergency purposes, or calls made to collect a debt
owed to or guaranteed by the United States. See
47 U.S.C. § 227(b)(1)(A), (b)(1)(A)(iii). The FCC’s regulatory exemptions include uncharged calls from a wireless carrier to its customer, uncharged package delivery
notifications, non-telemarketing communications where
a third party has represented to the sender that the recipient has consented to the communications, emergency calls related to healthcare, certain calls related to
identity theft, and calls from federal government officials conducting official business. See Telephone Consumer Protection Act of 1991, 77 Fed. Reg. 34233, 34235
(June 11, 2012) (exempting wireless carriers); In the
Matter of Cargo Airline Ass’n Petition for Expedited
Declaratory Ruling, 29 FCC Rcd. 3432, 3439 (Mar. 27,
2014) (exempting package-delivery notifications); In the
Matter of GroupMe. Inc./Skype Commc’ns S.A.R.L.,
29 FCC Rcd. 3442, 3444 (Mar. 27, 2014) (exempting
third-party representation of consent); In re Rules &
Regulations Implementing the Tel. Consumer Prot. Act
of 1991, 30 FCC Rcd. 7961, 8023-24, 8031 (July 10, 2015)
(exempting certain calls related to healthcare and identity theft); In re Rules & Regulations Implementing the
Tel. Consumer Prot. Act of 1991, CG Docket No. 02-278

31a
¶ 12 (July 5, 2016) (exempting calls made by federal officials conducting official business).
Plaintiffs argue that 47 U.S.C. § 227(b)(1)(A)(iii) is an
unconstitutional content-based restriction on speech because the government-debt exception and the FCC regulatory exemptions favor commercial speech over core
political speech. See [D.E. 31] 5-6. Defendants respond
that 47 U.S.C. § 227(b)(1)(A)(iii) is a valid, content-neutral
law. See [D.E. 35] 6-13. Alternatively, defendants argue that 47 U.S.C. § 227(b)(1)(A)(iii) satisfies strict scrutiny. See id. at 20-28.
II.
Summary judgment is appropriate if the moving
party demonstrates ‘‘that there is no genuine dispute as
to any material fact” and the moving party “is entitled
to judgment as a matter of law.” Fed. R. Civ. P. 56(a).
The party seeking summary judgment must initially
show an absence of a genuine dispute of material fact or
the absence of evidence to support the nonmoving party’s case. Celotex Com. v. Catrett, 477 U.S. 317, 325
(1986). If a moving party meets its burden, the nonmoving party must “come forward with specific facts
showing that there is a genuine issue for trial.” Matsushita Elec. Indus. Co. v. Zenith Radio Corp., 475 U.S.
574, 587 (1986) (quotation and emphasis omitted). A
genuine issue for trial exists if there is sufficient evidence favoring the nonmoving party for a jury to return
a verdict for that party. Anderson v. Liberty Lobby,
Inc., 477 U.S. 242, 249 (1986). ‘‘The mere existence of
a scintilla of evidence in support of the plaintiff ’s position [is] insufficient. . . . ” Id. at 252; see Beale v.
Hardy, 769 F.2d 213, 214 (4th Cir. 1985) (‘‘The nonmov-

32a
ing party, however, cannot create a genuine issue of material fact through mere speculation or the building of
one inference upon another.”). Only factual disputes
that might affect the outcome under substantive law
preclude summary judgment. Anderson, 477 U.S. at
248. In reviewing the factual record, the court views
the facts in the light most favorable to the nonmoving
party and draws reasonable inferences in that party’s
favor. Matsushita, 475 U.S. at 587-88. “When crossmotions for summary judgment are before a court, the
court examines each motion separately, employing the
familiar standard under Rule 56 of the Federal Rules of
Civil Procedure.” Desmond v. PNGI Charles Town
Gaming, L.L.C., 630 F.3d 351, 354 (4th Cir. 2011).
III.
The First Amendment ‘‘prohibits the enactment of
laws abridging the freedom of speech[,]” and deprives
the government of the ‘‘power to restrict expression because of its message, its ideas, its subject matter, or its
content.” Reed v. Town of Gilbert, 135 S. Ct. 2218,
2226 (2015); see U.S. Const. amend. I. “Content-based
laws—those that target speech based on its communicative content—are presumptively unconstitutional and
may be justified only if the government proves that they
are narrowly tailored to serve compelling state interests.” Reed, 135 S. Ct. at 2226; see R.A.V. v. St. Paul,
505 U.S. 377, 395 (1992). “Government regulation of
speech is content based if a law applies to particular
speech because of the topic discussed or the idea or message expressed. . . . This commonsense meaning of
the phrase ‘content based’ requires a court to consider
whether a regulation of speech ‘on its face’ draws distinctions based on the message a speaker conveys.”

33a
Reed, 135 S. Ct. at 2227 (citations omitted). Regulations or restrictions on speech which “depend entirely
on the communicative content of the [speech]” are
content-based regulations and are therefore subject to
strict scrutiny. Id. If a restriction is facially contentbased, courts apply strict scrutiny, ‘‘regardless of the
government’s benign motive, content-neutral justification, or lack of animus toward the ideas contained in the
regulated speech.” Id. at 2228 (quotation omitted).
“[I]llicit legislative intent is not the sine qua non of a
violation of the First Amendment.” Id. (quotation omitted). “[T]he crucial first step in the content-neutrality
analysis is to determine whether the law is content neutral on its face.” Cahaly v. Larosa, 796 F.3d 399, 405
(4th Cir. 2015) (quotation and alteration omitted); see
Reed, 135 S. Ct. at 2228.
The TCPA’s government-debt exception is a contentbased speech restriction “because it makes content distinctions on its face.” Cahaly, 796 F.3d at 405. In order for a court to determine whether a potential defendant violated the TCPA’s government-debt exception,
the court must review the communicative content of
the call. If the call was made “solely to collect a debt
owed to or guaranteed by the United States,” the
defendant would not be liable under the TCPA. See
47 U.S.C. § 227(b)(1)(A)(iii). If the call concerned any
other topic, the defendant would be liable. See id.
For example, under the TCPA, “a private debt collection
agency may call the same consumer twice in a row, once
to collect a private, government-guaranteed loan and
once to collect a similar private loan not guaranteed by
the government, but, absent prior express consent, may
place only the first call using an autodialer or prere-

34a
corded voice.” Gallion, 2018 WL 1135386, at *4 (quotation omitted). This distinction derives from the call’s
communicative content.
See id. at *5; Greenley,
271 F. Supp. 3d at 1146-49; Mejia, 2017 WL 3278926,
at *14-15; Holt, 240 F. Supp. 3d at 1032-33; Brickman,
230 F. Supp. 3d at 1043-45; cf. Gomez v. CampbellEwald Co., 768 F.3d 871, 876-77 (9th Cir. 2014) (holding that the pre-2015 version of TCPA without the
government-debt exception is content-neutral), aff ’d on
other grounds, 136 S. Ct. 663 (2016); Woods, 2017 WL
1178003, at *3-5 (same). In opposition to this conclusion, defendants argue that the government-debt exception is not content-based, but instead based on the relationship between the parties to the call. A restriction
based on the relationship between a caller and a recipient is not content-based if the restriction applies independently of “what the caller proposes to say.” Patriotic Veterans Inc., 845 F.3d at 304-05; see Van Bergen
v. Minn., 59 F.3d 1541, 1550 (8th Cir. 1995).
This court rejects defendants’ argument. First,
‘‘the plain language of the [government-debt] exception
makes no reference whatsoever to the relationship of the
parties.” Gallion, 2018 WL 1135386, at *5 (quotation
and alteration omitted); see Brickman, 230 F. Supp. 3d
at 1045; cf. Patriotic Veterans, 845 F.3d at 305; Van Bergen, 59 F.3d at 1550. Second, the relationship at issue
for the government-debt exception is the relationship
between the government and the debtor, but the exception allows “a third party that has no preexisting relationship with the debtor” to use an autodialer or recorded voice to call to collect a debt owed to or guaranteed by the United States. Gallion, 2018 WL 1135386,
at *5 (quotation omitted). Thus, the government debt-

35a
exception is “based on the subject matter of the call regardless of the caller’s relationship to the recipient.”
Greenley, 271 F. Supp. 3d at 1148; see Gallion, 2018 WL
1135386, at *5.
Content-based speech restrictions are subject to
strict scrutiny. See Cahaly, 796 F.3d at 405. Strict
scrutiny does not mean “strict in theory, but fatal in
fact.” Williams-Yulee v. Fla. Bar, 135 S. Ct. 1656, 1666
(2015) (quotation omitted). “To survive strict scrutiny,
the government must prove that the restriction furthers
a compelling interest and is narrowly tailored to achieve
that interest.” Greenley, 271 F. Supp. 3d at 1149 (quotation and alteration omitted); see Reed, 135 S. Ct. at
2231; Cahaly, 796 F.3d at 405. The government also
must use ‘‘the least restrictive means” among equally effective alternatives to accomplish its compelling state
interest. See Ashcroft v. ACLU, 542 U.S. 656, 666
(2004).
As for whether the autodialing ban furthers a compelling state interest, the Supreme Court has reviewed
and upheld Congress’s extensive findings that “automated or prerecorded telephone calls made to private
residences . . . were rightly regarded by recipients
as an invasion of privacy.” Mims v. Arrow Fin. Servs.,
LLC, 565 U.S. 368, 372 (2012) (quotation and alteration
omitted); see Telephone Consumer Protection Act of
1991, Pub. L. No. 102-243 § 2(10) (1991). The Supreme
Court also has held that “[t]he State’s interest in protecting the well-being, tranquility, and privacy of the
home is certainly of the highest order in a free and civilized society.” Carey v. Brown, 447 U.S. 455, 471
(1980); see Gallion, 2018 WL 1135386, at *5. “One important aspect of residential privacy is protection of the

36a
unwilling listener. . . . [I]ndividuals are not required to welcome unwanted speech into their own
homes and . . . the government may protect this
freedom.” Frisby v. Schultz, 487 U.S. 474, 484-85
(1988); see Gallion, 2018 WL 1135386, at *5; cf. Cahaly,
796 F.3d at 405 (assuming that “protect[ing] residential
privacy and tranquility from unwanted and intrusive robocalls” is a compelling state interest). Thus, the court
concludes that protecting the well-being, tranquility,
and privacy of the individual’s residence is a compelling
state interest and that the TCPA auto-dialing ban furthers that compelling interest. See, e.g., Patriotic Veterans, 845 F.3d at 305-06; Van Bergen, 59 F.3d at 1554;
Gallion, 2018 WL 1135386, at *5-6; Greenley, 271 F. Supp.
3d at 1150; Mejia, 2017 WL 3278926, at *16; Woods,
2017 WL 1178003, at *5; Holt, 240 F. Supp. 3d at 1033;
Brickman, 230 F. Supp. 3d at 1046.
Content-based speech restrictions that serve compelling state interests must be narrowly tailored to meet
those interests. See Reed, 135 S. Ct. at 2231; Cahaly,
796 F.3d at 405. Narrow tailoring requires that the restriction not be underinclusive or overinclusive in the
speech that it restricts, and the government must use
the least restrictive means to serve its interests. See
Cahaly, 796 F.3d at 405-06. However, narrow tailoring
does not require perfect tailoring. Williams-Yulee,
135 S. Ct. at 1671.
As for underinclusiveness, the “First Amendment
imposes no freestanding ‘underinclusiveness limitation,’ ” although underinclusivity raises a red flag about
whether the regulation is truly targeted to further a
compelling state interest. Id. at 1668. “It is always
somewhat counterintuitive to argue that a law violates

37a
the First Amendment by abridging too little speech.”
Id. (emphasis in original). The underinclusiveness inquiry weighs “doubts as to whether the government is
pursuing an interest it invokes or whether the statute
furthers a compelling interest.” Brickman, 230 F. Supp.
3d at 1046. A statute or regulation which admits too
many exceptions fails to further a compelling interest.
After all, “a law cannot be regarded as protecting an interest of the highest order, and thus as justifying a restriction on truthful speech, when it leaves appreciable
damage to that supposedly vital interest unprohibited.”
Reed, 135 S. Ct. at 2232 (quotation omitted); see Republican Party of Minn. v. White, 536 U.S. 765, 780 (2002).
Plaintiffs make two underinclusiveness arguments.
First, they argue that the government-debt exception is
underinclusive in the same way that the sign ordinance
invalidated in Reed was underinclusive and unconstitutionally favors speakers seeking to collect government
debts. See [D.E. 31] 6. Second, they argue that Congressional delegation of exemption-making authority to
the FCC provides the possibility for the proliferation of
exemptions. See id. at 17-18.
As for the TCPA’s government-debt exception, it
stands in stark contrast to the sign ordinance that the
Supreme Court invalidated in Reed. See Reed, 135 S. Ct.
at 2224-28, 2231-32. The sign ordinance in Reed exempted 23 categories of signs and allowed the unlimited
proliferation of various other signs. See id. Unlike
the exception-riddled sign ordinance in Reed, the
TCPA’s government-debt exception is a narrow exception that furthers a compelling interest. See Gallion,
2018 WL 1135386, at *7; Mejia, 2017 WL 3278926, at *16
(“[T]he federal government’s interest in collecting debts

38a
owed to it supports the finding of a particularly compelling interest in exempting calls made for the purposes
of collecting government debts.”).
Moreover, ‘‘the
TCPA’s express grant of authority to the FCC to restrict or limit the number and duration of calls made to
collect a debt owed to or guaranteed by the United
States” further limits the TCPA’s government-debt exception. Gallion, 2018 WL 1135386, at *7 (quotation
and alteration omitted). Additionally, the FCC has issued a proposed rule limiting the number of federal debt
collection calls to three within a 30-day period and limiting call lengths to 60 seconds or less. Id. The court
concludes ‘‘that the narrow, FCC-regulated governmentdebt exception does not do appreciable damage to the privacy interests underlying the TCPA.” Id. (quotation
omitted); see Mejia, 2017 WL 3278926, at *17; Holt,
240 F. Supp. 3d at 1033; Brickman, 230 F. Supp. 3d at 1047.
As for plaintiffs’ complaints about the FCC orders
adding certain other narrow exemptions to the autodialing ban that the FCC issued pursuant to its delegated
authority, this court lacks jurisdiction to adjudicate the
validity of such orders. See Order [D.E. 26] 3; Mejia,
2017 WL 3278926, at *15 n.7. Any party wishing to challenge the substance of any order that the FCC issued
under 47 U.S.C. § 227(b)(2) must file an action in
“[t]he court of appeals (other than the United States
Court of Appeals for the Federal Circuit) [which] has exclusive jurisdiction to enjoin, set aside, suspend (in whole
or in part), or to determine the validity of all final orders
of the Federal Communications Commission. . . . ”
28 U.S.C. § 2342. Because this court lacks jurisdiction
to entertain a constitutional challenge concerning
such FCC orders, the court “does not consider those

39a
exceptions for purpose of this analysis.”
271 F. Supp. 3d at 1149.

Greenley,

As for Congressional delegation to the FCC in
47 U.S.C. § 227(b)(2) to create exemptions, the delegation “does not substantively except any communications” and therefore ‘‘is not facially or inherently contentbased.” Id. After all, ‘‘there are content-neutral
ways for the FCC to implement [the delegation], including relationship-based exceptions.”
Id.
Furthermore, that Congress delegated authority to the FCC to
make exemptions does not prove that the TCPA is
underinclusive. See Mejia, 2017 WL 3278926, at *15;
Brickman, 230 F. Supp. 3d at 1045. Indeed, Congress’s
delegation directs that the FCC “shall consider prescribing regulations” which would tend to increase privacy protections, and that the FCC “may’’ write exemptions from the autodialing ban, but only if those exemptions ‘‘will not adversely affect the privacy rights that
this section is intended to protect.” See 47 U.S.C.
§ 227(b)(2)(A)-(B) (emphasis added).
Accordingly,
the court rejects plaintiffs’ argument that the TCPA is
underinclusive. See Gallion, 2018 WL 1135386, at *6-7;
Mejia, 2017 WL 3278926, at *17; Holt, 240 F. Supp. 3d
at 1033-34; Brickman, 230 F. Supp. 3d at 1046-48.
As for overinclusiveness, speech restrictions may not
be “overinclusive by unnecessarily circumscribing protected expression.” Cahaly, 796 F.3d at 405 (quotation
and alteration omitted); see Republican Party of Minn.,
536 U.S. at 775. In Cahaly, the Fourth Circuit analyzed a South Carolina statute regulating automated telephone calls. Cahaly, 796 F.3d at 402. The South
Carolina statute placed different restrictions on such robocalls depending on whether the calls were unsolicited

40a
and made for consumer, political, or other purposes.
Id. The South Carolina statute applied ‘‘to calls with a
consumer or political message but [did] not reach calls
made for any other purpose.” Id. at 405. The Fourth
Circuit held that the South Carolina statute was “overinclusive” in that “[c]omplaint statistics show that unwanted commercial calls are a far bigger problem than
unsolicited calls from political or charitable organizations.” Id. (quotation omitted).
Plaintiffs cite Cahaly and argue that the TCPA is
similarly overinclusive. See [D.E. 31] 20-21. The South
Carolina statute at issue in Cahaly, however, is distinguishable from 47 U.S.C. § 227(b)(1)(A)(iii). “Evidence
compiled by Congress indicates that residential telephone subscribers consider automated or prerecorded
telephone calls, regardless of the content or the initiator
of the message, to be a nuisance and an invasion of privacy.” Telephone Consumer Protection Act of 1991,
Pub. L. No. 102-243 § 2(10) (1991). Moreover, unlike
the South Carolina statute at issue in Cahaly, ‘‘the
TCPA is quite limited in what it prohibits.” Brickman,
230 F. Supp. 3d at 1048. “[T]he TCPA does not restrict
individuals from receiving any content they want to
receive—speech that would otherwise be prohibited by
the TCPA is immediately removed from the purview of
the statute once express consent is provided.” Id.; see
Greenley, 271 F. Supp. 3d at 1150-51; Holt, 240 F. Supp.
3d at 1034. Thus, the court rejects plaintiffs’ argument
that the TCPA is overinclusive.
Finally, plaintiffs argue that there are a host of “less
restrictive alternatives” to 47 U.S.C. § 227(b)(1)(A)(iii)
that would allow Congress to achieve the legitimate purpose that it enacted the TCPA to serve. In support,

41a
plaintiffs cite the Fourth Circuit’s discussion in Cahaly
of time-of-day limitations, mandatory disclosure of a
caller’s identity, and do not call lists. See Cahaly,
796 F.3d at 405.
“If a less restrictive alternative would serve the Government’s purpose, the legislature must use that alternative.” United States v. Playboy Entm’t Grp., Inc.,
529 U.S. 803, 813 (2000); see Cahaly, 796 F.3d at 405.
However, these alternatives must “be at least as effective in achieving the legitimate purpose that [the] statute was enacted to serve.” Gallion, 2018 WL 1135386,
at *7 (quotation omitted); cf. Reno v. ACLU, 521 U.S.
844, 874 (1997).
Unlike the alternative applicable to the South Carolina statute at issue in Cahaly, plaintiffs alternatives
would not “be at least as effective in achieving the legitimate purpose” that Congress enacted the TCPA to
serve. Reno, 521 U.S. at 874. “Time-of-day limitations would not achieve the same privacy objectives because even though such a restriction may designate the
span of time in which callers can intrude on an individual’s privacy, it would also designate a time for intrusive
phone calls.” Brickman, 230 F. Supp. 3d at 1048; see
Gallion, 2018 WL 1135386, at *7; Greenley, 271 F. Supp.
3d at 1151; Mejia, 2017 WL 3278926, at *17; Holt,
240 F. Supp. 3d at 1034. Likewise, “[m]andatory disclosure of a caller’s identity and disconnection requirements would also not be as effective in achieving residential privacy because these would not prevent the privacy intrusion from the phone call in the first place.”
Brickman, 230 F. Supp. 3d at 1048-49; see Gallion, 2018
WL 1135386, at *7; Greenley, 271 F. Supp. 3d at 1151;
Mejia, 2017 WL 3278926, at *17; Holt, 240 F. Supp. 3d

42a
at 1034. Similarly, “[d]o-not-call lists would also not be
a plausible less restrictive alternative because placing
the burden on consumers to opt-out of intrusive calls,
rather than requiring consumers to opt-in, would obviously not be as effective in achieving residential privacy.” Brickman, 230 F. Supp. 3d at 1049; see Gallion,
2018 WL 1135386, at *7; Greenley, 271 F. Supp. 3d at
1151; Mejia, 2017 WL 3278926, at *17; Holt, 240 F. Supp.
3d at 1034. Thus, the court rejects plaintiffs’ argument
concerning less restrictive alternatives.
IV.
In sum, the court GRANTS defendants’ motion for
summary judgment [D.E. 34] and DENIES plaintiffs’
motion for summary judgment [D.E. 30]. The clerk
shall close the case.
SO ORDERED.
/s/

This [24] day of Mar. 2018.
JAMES C. DEVER III
JAMES C. DEVER III
Chief United States District Judge

43a
APPENDIX C
UNITED STATES DISTRICT COURT
FOR THE EASTERN DISTRICT OF NORTH CAROLINA
WESTERN DIVISION

No. 5:16-CV-252-D
AMERICAN ASSOCIATION OF POLITICAL CONSULTANTS,
INC., DEMOCRATIC PARTY OF OREGON, INC.,
PUBLIC POLICY POLLING, LLC, TEA PARTY FORWARD
PAC, AND WASHINGTON STATE DEMOCRATIC CENTRAL
COMMITTEE, PLAINTIFFS
v.
JEFFERSON SESSIONS, IN HIS OFFICIAL CAPACITY
AS ATTORNEY GENERAL OF THE UNITED STATES,
AND FEDERAL COMMUNICATIONS COMMISSION,
A FEDERAL AGENCY, DEFENDANTS
Filed: Mar. 15, 2017
ORDER

On May 12, 2016, the American Association of Political Consultants, Inc., the Democratic Party of Oregon,
Inc., Public Policy Polling, LLC, the Tea Party Forward
PAC, and the Washington State Democratic Central
Committee (collectively, “plaintiffs”) sued United States
Attorney General Loretta Lynch in her official capacity
and the Federal Communications Commission (‘‘the

44a
FCC”) (collectively, “defendants”) [D.E. 1]. 1 On July
15, 2016, Loretta Lynch moved to dismiss plaintiffs’
complaint pursuant to Federal Rule of Civil Procedure
12(b)(1) for lack of subject-matter jurisdiction [D.E. 15].
On August 5, 2016, plaintiffs amended their complaint [D.E. 18]. Thus, defendants’ motion to dismiss
plaintiffs’ original complaint is denied as moot.
On September 2, 2016, defendants moved to dismiss
plaintiffs’ amended complaint under Federal Ru1e of
Civil Procedure 12(b)(1) for lack of subject-matter jurisdiction [D.E. 22] and filed a memorandum in support
[D.E. 23]. On September 23, 2016, plaintiffs responded
[D.E. 23]. On October 7, 2016, defendants replied
[D.E. 25]. As explained below, the court denies defendants’ motion to dismiss.
Plaintiffs’ amended complaint challenges the prohibition in 47 U.S.C. § 227(b)(1)(A)(iii) against certain automatically dialed phone calls (‘‘the autodialing ban”) because the prohibition is both a content-based restriction
on protected speech and unconstitutionally underinclusive. See Am. Compl. [D.E. 18] ¶¶ 2, 36-63. The autodialing ban prohibits “mak[ing] any call (other than a
call made for emergency purposes or made with the
prior express consent of the called party) using any automatic telephone dialing system or an artificial or prerecorded voice . . . to any telephone number assigned to a . . . cellular telephone service . . .
unless such call is made solely to collect a debt owed to
or guaranteed by the United States.”
47 U.S.C.
On February 19, 2017, Jefferson Sessions assumed the position
of Attorney General of the United States. A public officer’s “successor is automatically substituted as a party.” Fed. R. Civ. P. 25(d).
1

45a
§ 227(b)(1)(A), (b)(1)(A)(iii). The FCC is empowered
to “prescribe regulations to implement” 47 U.S.C.
§ 227(b). See id. § 227(b)(2). In support of their argument that the autodialing ban is unconstitutional, plaintiffs cite exemptions from the ban, created by statute
and FCC orders, they claim are content-based. Am.
Compl. ¶¶ 22, 28-35. The statutory exemptions include
calls made for emergency purposes, calls made with the
express consent of the called party, or calls made to collect a debt owed to or guaranteed by the United States.
See 47 U.S.C. § 227(b)(1)(A), (b)(1)(A)(iii). The FCC’s
regulatory exemptions include uncharged calls from a
wireless carrier to its customer, uncharged package delivery notifications, non-telemarketing communications
where a third party has represented to the sender that
the recipient has consented to the communications,
emergency calls related to healthcare, certain calls related to identity theft, and calls from federal government officials conducting official business. See Telephone Consumer Protection Act of 1991, 77 Fed. Reg.
34233, 34235 (June 11, 2012) (exempting wireless carriers); In the Matter of Cargo Airline Assoc. Petition for
Expedited Declaratory Ruling, 29 FCC Rcd. 3432, 3439
(Mar. 27, 2014) (exempting package delivery notifications); In the Matter of GroupMe. Inc./Skype Commc’ns
S.A.R.L., 29 FCC Rcd. 3442, 3444 (Mar. 27, 2014) (exemption for third-party representation of consent); In
re Rules and Regulations Implementing the Tel. Consumer Prot. Act. of 1991, 30 FCC Rcd. 7961, 8023-24,
8031 (Ju1y 10, 2015) (exempting certain calls related to
healthcare and identity theft); In re Rules and Regulations Implementing the Tel. Consumer Prot. Act of

46a
1991, CG Docket No. 02-278 ¶ 12 (Ju1y 5, 2016) (exempting calls made by federal officials conducting official
business).
Defendants move to dismiss plaintiffs’s amended
complaint for lack of subject-matter jurisdiction and
make two arguments. First, defendants argue that
this case falls within the exclusive jurisdiction of the federal court of appeals. Second, defendants argue that
plaintiffs lack standing because a favorable decision in
this court could not redress plaintiffs’ injuries.
Under 47 U.S.C. § 402(a), “[a]ny proceeding to enjoin, set aside, annul, or suspend any order of the [FCC]
under this chapter . . . shall be brought as provided
by and in the manner prescribed in chapter 158 of Title
28,” subject to some exceptions that do not apply in this
case. Section 402(a) directs the court to 28 U.S.C.
§ 2342, which states that “[t]he court of appeals (other
than the United States Court of Appeals for the Federal
Circuit) has exclusive jurisdiction to enjoin, set aside,
suspend (in whole or in part) or to determine the validity
of . . . all final orders of the Federal Communications Commission made reviewable by” 47 U.S.C.
§ 402(a).
Plaintiffs do not seek to enjoin, set aside, annul, or
suspend any order of the FCC. Rather, plaintiffs challenge the autodialing ban in 42 U.S.C. § 277(b)(1)(A)(iii),
which the FCC has interpreted and to which the FCC
has defined exceptions. Although plaintiffs may argue
at a later stage of this case that the FCC’s orders are
evidence showing the autodialing ban is content-based,
they do not seek to show that the FCC’s orders delineating or interpreting exceptions to the autodialing ban
are void or invalid. Merely referencing FCC orders

47a
does not make the present proceeding one to enjoin, set
aside, annul, or suspend those orders within the meaning of 47 U.S.C. § 402(a). Moreover, the FCC’s orders
carving out exemptions to the autodialing ban would
not be affected by the relief plaintiffs seek. Plaintiffs
seek to invalidate the autodialing ban in 42 U.S.C.
§ 277(b)(1)(A)(iii). The FCC’s orders carve out exemptions to the autodialing ban. If the plaintiffs obtain the
relief they seek in this action, the exemptions set out in
the FCC’s orders will be rendered unnecessary, but
they will not be enjoined, set aside, annulled, or suspended. Thus, the court rejects defendants’ first argument.
As for the question of redressability, defendants argue that plaintiffs’ injuries are not redressable because
even if the court were to find that the autodialing ban is
unconstitutional, the court would have to sever the exemptions from the ban, in which case plaintiffs would
still be prohibited from sending automatic messages to
cellular telephones. The United States Court of Appeals for the Fourth Circuit, however, took the opposite
approach in Cahaly v. Larosa, 796 F.3d 399, 402-06 (4th
Cir. 2015). In Cahaly, the Fourth Circuit considered a
constitutional challenge to South Carolina’s antirobocall statute, which banned automated telephone
calls delivering prerecorded messages for consumer or
political purposes but also carved out three exceptions
based on the express or implied consent of the called
party. Id. at 402. The Fourth Circuit held that the
robocall ban was a content-based restriction that was
unconstitutional because it could not survive strict scrutiny. Id. at 405-06. The Fourth Circuit did not sever
the general ban from its exceptions.
Rather, the

48a
Fourth Circuit affirmed the district court’s order declaring the robocall statute unconstitutional and barring
its enforcement. Id. at 404-06. Here, the question of
plaintiffs’ success on the merits and the appropriate relief is a question for another day, but as a matter of
standing, this court does not lack the power to grant
plaintiffs the relief they seek.
In sum, pursuant to Fed. R. Civ. P. 25(d), the court
ORDERS that Jefferson Sessions in his official capacity
as Attorney General of the United States, be substituted
for Loretta Lynch in her official capacity as Attorney
General of the United States. Defendants’ motion to
dismiss plaintiffs’ initial complaint for lack of subjectmatter jurisdiction [D.E. 15] is DENIED as moot. Defendants’ motion to dismiss plaintiffs’ amended complaint for lack of subject-matter jurisdiction [D.E. 22] is
DENIED.
SO ORDERED.

This [15] day of Mar. 2017.

/s/ JAMES C. DEVER III
JAMES C. DEVER III
Chief United States District Judge

49a
APPENDIX D
UNITED STATES COURT OF APPEALS
FOR THE FOURTH CIRCUIT

No. 18-1588
(5:16-cv-00252-D)
AMERICAN ASSOCIATION OF POLITICAL CONSULTANTS,
INC.; DEMOCRATIC PARTY OF OREGON, INC.;
PUBLIC POLICY POLLING, LLC; WASHINGTON STATE
DEMOCRATIC CENTRAL COMMITTEE,
PLAINTIFFS-APPELLANTS
AND

TEA PARTY FORWARD PAC, PLAINTIFF
v.
FEDERAL COMMUNICATIONS COMMISSION;
WILLIAM P. BARR, IN HIS OFFICIAL CAPACITY
AS ATTORNEY GENERAL OF THE UNITED STATES,
DEFENDANTS-APPELLEES
Filed: June 21, 2019
ORDER

The petitions for rehearing en banc were circulated
to the full court. No judge requested a poll under Fed.
R. App. P. 35. The court denies the petitions for rehearing en banc.
For the Court
/s/ PATRICIA S. CONNOR, Clerk

50a
APPENDIX E

47 U.S.C. 227(a)-(b) (2012 & Supp. V 2017) provides:
Restrictions on use of telephone equipment
(a)

Definitions

As used in this section—
(1) The term “automatic telephone dialing system” means equipment which has the capacity—
(A) to store or produce telephone numbers to
be called, using a random or sequential number
generator; and
(B) to dial such numbers.
(2) The term “established business relationship”,
for purposes only of subsection (b)(1)(C)(i) of this section, shall have the meaning given the term in section
64.1200 of title 47, Code of Federal Regulations, as in
effect on January 1, 2003, except that—
(A) such term shall include a relationship between a person or entity and a business subscriber
subject to the same terms applicable under such
section to a relationship between a person or entity and a residential subscriber; and
(B) an established business relationship shall
be subject to any time limitation established pursuant to paragraph (2)(G)). 1

So in original.
appear.
1

Second closing parenthesis probably should not

51a
(3) The term “telephone facsimile machine”
means equipment which has the capacity (A) to transcribe text or images, or both, from paper into an
electronic signal and to transmit that signal over a
regular telephone line, or (B) to transcribe text or images (or both) from an electronic signal received over
a regular telephone line onto paper.
(4) The term “telephone solicitation” means the
initiation of a telephone call or message for the purpose of encouraging the purchase or rental of, or investment in, property, goods, or services, which is
transmitted to any person, but such term does not include a call or message (A) to any person with that
person’s prior express invitation or permission, (B) to
any person with whom the caller has an established
business relationship, or (C) by a tax exempt nonprofit organization.
(5) The term “unsolicited advertisement” means
any material advertising the commercial availability
or quality of any property, goods, or services which
is transmitted to any person without that person’s
prior express invitation or permission, in writing or
otherwise.
(b)

Restrictions on use of automated telephone equipment
(1) Prohibitions

It shall be unlawful for any person within the
United States, or any person outside the United
States if the recipient is within the United States—
(A) to make any call (other than a call made for
emergency purposes or made with the prior ex-

52a
press consent of the called party) using any automatic telephone dialing system or an artificial or
prerecorded voice—
(i) to any emergency telephone line (including any “911” line and any emergency line
of a hospital, medical physician or service office,
health care facility, poison control center, or
fire protection or law enforcement agency);
(ii) to the telephone line of any guest room
or patient room of a hospital, health care facility, elderly home, or similar establishment; or
(iii) to any telephone number assigned to a
paging service, cellular telephone service, specialized mobile radio service, or other radio common carrier service, or any service for which the
called party is charged for the call, unless such
call is made solely to collect a debt owed to or
guaranteed by the United States;
(B) to initiate any telephone call to any residential telephone line using an artificial or prerecorded voice to deliver a message without the
prior express consent of the called party, unless
the call is initiated for emergency purposes, is
made solely pursuant to the collection of a debt
owed to or guaranteed by the United States, or is
exempted by rule or order by the Commission under paragraph (2)(B);
(C) to use any telephone facsimile machine,
computer, or other device to send, to a telephone
facsimile machine, an unsolicited advertisement,
unless—

53a
(i) the unsolicited advertisement is from a
sender with an established business relationship with the recipient;
(ii) the sender obtained the number of the
telephone facsimile machine through—
(I) the voluntary communication of such
number, within the context of such established business relationship, from the recipient of the unsolicited advertisement, or
(II) a directory, advertisement, or site on
the Internet to which the recipient voluntarily agreed to make available its facsimile number for public distribution,
except that this clause shall not apply in the
case of an unsolicited advertisement that is sent
based on an established business relationship
with the recipient that was in existence before
July 9, 2005, if the sender possessed the facsimile machine number of the recipient before July
9, 2005; and
(iii) the unsolicited advertisement contains a
notice meeting the requirements under paragraph (2)(D),
except that the exception under clauses (i) and (ii)
shall not apply with respect to an unsolicited advertisement sent to a telephone facsimile machine
by a sender to whom a request has been made not
to send future unsolicited advertisements to such
telephone facsimile machine that complies with
the requirements under paragraph (2)(E); or

54a
(D) to use an automatic telephone dialing system in such a way that two or more telephone lines
of a multi-line business are engaged simultaneously.
(2) Regulations; exemptions and other provisions

The Commission shall prescribe regulations to implement the requirements of this subsection. In implementing the requirements of this subsection, the
Commission—
(A) shall consider prescribing regulations to
allow businesses to avoid receiving calls made using an artificial or prerecorded voice to which they
have not given their prior express consent;
(B) may, by rule or order, exempt from the requirements of paragraph (1)(B) of this subsection,
subject to such conditions as the Commission may
prescribe—
(i) calls that are not made for a commercial
purpose; and
(ii) such classes or categories of calls made
for commercial purposes as the Commission determines—
(I) will not adversely affect the privacy
rights that this section is intended to protect;
and
(II) do not include the transmission of any
unsolicited advertisement;

55a
(C) may, by rule or order, exempt from the requirements of paragraph (1)(A)(iii) of this subsection calls to a telephone number assigned to a cellular telephone service that are not charged to the
called party, subject to such conditions as the Commission may prescribe as necessary in the interest
of the privacy rights this section is intended to
protect;
(D) shall provide that a notice contained in an
unsolicited advertisement complies with the requirements under this subparagraph only if—
(i) the notice is clear and conspicuous and
on the first page of the unsolicited advertisement;
(ii) the notice states that the recipient may
make a request to the sender of the unsolicited
advertisement not to send any future unsolicited advertisements to a telephone facsimile machine or machines and that failure to comply,
within the shortest reasonable time, as determined by the Commission, with such a request
meeting the requirements under subparagraph
(E) is unlawful;
(iii) the notice sets forth the requirements
for a request under subparagraph (E);
(iv) the notice includes—
(I) a domestic contact telephone and facsimile machine number for the recipient to
transmit such a request to the sender; and
(II) a cost-free mechanism for a recipient
to transmit a request pursuant to such notice

56a
to the sender of the unsolicited advertisement; the Commission shall by rule require
the sender to provide such a mechanism and
may, in the discretion of the Commission and
subject to such conditions as the Commission
may prescribe, exempt certain classes of small
business senders, but only if the Commission
determines that the costs to such class are
unduly burdensome given the revenues generated by such small businesses;
(v) the telephone and facsimile machine
numbers and the cost-free mechanism set forth
pursuant to clause (iv) permit an individual or
business to make such a request at any time on
any day of the week; and
(vi) the notice complies with the requirements of subsection (d);
(E) shall provide, by rule, that a request not to
send future unsolicited advertisements to a telephone facsimile machine complies with the requirements under this subparagraph only if—
(i) the request identifies the telephone
number or numbers of the telephone facsimile
machine or machines to which the request relates;
(ii) the request is made to the telephone or
facsimile number of the sender of such an unsolicited advertisement provided pursuant to subparagraph (D)(iv) or by any other method of
communication as determined by the Commission; and

57a
(iii) the person making the request has not,
subsequent to such request, provided express
invitation or permission to the sender, in writing or otherwise, to send such advertisements
to such person at such telephone facsimile machine;
(F) may, in the discretion of the Commission
and subject to such conditions as the Commission
may prescribe, allow professional or trade associations that are tax-exempt nonprofit organizations
to send unsolicited advertisements to their members in furtherance of the association’s tax-exempt
purpose that do not contain the notice required by
paragraph (1)(C)(iii), except that the Commission
may take action under this subparagraph only—
(i) by regulation issued after public notice
and opportunity for public comment; and
(ii) if the Commission determines that such
notice required by paragraph (1)(C)(iii) is not
necessary to protect the ability of the members
of such associations to stop such associations
from sending any future unsolicited advertisements;
(G)(i) may, consistent with clause (ii), limit the
duration of the existence of an established business relationship, however, before establishing any
such limits, the Commission shall—
(I) determine whether the existence of the
exception under paragraph (1)(C) relating to an
established business relationship has resulted

58a
in a significant number of complaints to the Commission regarding the sending of unsolicited advertisements to telephone facsimile machines;
(II) determine whether a significant number of any such complaints involve unsolicited
advertisements that were sent on the basis of
an established business relationship that was
longer in duration than the Commission believes
is consistent with the reasonable expectations of
consumers;
(III) evaluate the costs to senders of demonstrating the existence of an established business
relationship within a specified period of time and
the benefits to recipients of establishing a limitation on such established business relationship; and
(IV) determine whether with respect to small
businesses, the costs would not be unduly burdensome; and
(ii) may not commence a proceeding to determine whether to limit the duration of the existence
of an established business relationship before the
expiration of the 3-month period that begins on
July 9, 2005; and
(H) may restrict or limit the number and duration of calls made to a telephone number assigned
to a cellular telephone service to collect a debt owed
to or guaranteed by the United States.

59a
(3) Private right of action

A person or entity may, if otherwise permitted by
the laws or rules of court of a State, bring in an appropriate court of that State—
(A) an action based on a violation of this subsection or the regulations prescribed under this
subsection to enjoin such violation,
(B) an action to recover for actual monetary
loss from such a violation, or to receive $500 in damages for each such violation, whichever is greater,
or
(C) both such actions.
If the court finds that the defendant willfully or
knowingly violated this subsection or the regulations
prescribed under this subsection, the court may, in
its discretion, increase the amount of the award to an
amount equal to not more than 3 times the amount
available under subparagraph (B) of this paragraph.

